<html>
<title> - TIME FOR ACTION: ADDRESSING THE ENVIRONMENTAL AND ECONOMIC EFFECTS OF CLIMATE CHANGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 TIME FOR ACTION: ADDRESSING THE ENVIRONMENTAL AND ECONOMIC EFFECTS OF 
                             CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON ENVIRONMENT AND CLIMATE CHANGE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2019

                               __________

                            Serial No. 116-1
                            
                            
                            
                            
                            
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
 


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov                    
                        
                        
          
                              ______
                          

                U.S. GOVERNMENT PUBLISHING OFFICE 
 35-330 PDF               WASHINGTON : 2020
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Environment and Climate Change

                          PAUL TONKO, New York
                                 Chairman
YVETTE D. CLARKE, New York           JOHN SHIMKUS, Illinois
SCOTT H. PETERS, California            Ranking Member
NANETTE DIAZ BARRAGAN, California    CATHY McMORRIS RODGERS, Washington
A. DONALD McEACHIN, Virginia         DAVID B. McKINLEY, West Virginia
LISA BLUNT ROCHESTER, Delaware       BILL JOHNSON, Ohio
DARREN SOTO, Florida                 BILLY LONG, Missouri
DIANA DeGETTE, Colorado              BILL FLORES, Texas
JAN SCHAKOWSKY, Illinois             MARKWAYNE MULLIN, Oklahoma
DORIS O. MATSUI, California          EARL L. ``BUDDY'' CARTER, Georgia
JERRY McNERNEY, California           JEFF DUNCAN, South Carolina
RAUL RUIZ, California, Vice Chair    GREG WALDEN, Oregon (ex officio)
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     2
    Prepared statement...........................................     4
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    12
Hon. Debbie Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................   105

                               Witnesses

Brenda Ekwurzel, Ph.D., Director of Climate Science, Union of 
  Concerned Scientists...........................................    14
    Prepared statement...........................................    17
Richard J. Powell, Executive Director, ClearPath.................    25
    Prepared statement...........................................    27
    Answers to submitted questions...............................   128
Richard D. Duke, Principal, Gigaton Strategies...................    31
    Prepared statement...........................................    33
Reverend Leo Woodberry, Justice First Campaign, Kingdom Living 
  Temple Church and New Alpha Community Development Corporation..    44
    Prepared statement...........................................    46
    Answers to submitted questions...............................   130
Barry Worthington, Executive Director, United States Energy 
  Association....................................................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................   132
Michael Williams, Deputy Director, BlueGreen Alliance............    53
    Prepared statement...........................................    55

                           Submitted Material

Slide, ``CO<INF>2</INF> Emissions, 2000-2016,'' Congressional 
  Research Service, submitted by Mr. McKinley....................    77
Statement of Jason Hartke, President, The Alliance to Save 
  Energy, February 6, 2019, submitted by Mr. Tonko...............   107
Fact sheet of Great Lakes Integrated Sciences and Assessments, 
  ``Climate Change in the Great Lakes Region,'' submitted by Mr. 
  Tonko..........................................................   110
Letter of January 8, 2019, from A. O. Smith, et al., to Hon. 
  Nancy Pelosi, et al., submitted by Mr. Tonko...................   112
Letter of February 6, 2019, from Linda Moore, TechNet President 
  and Chief Executive Officer, to Mr. Tonko and Mr. Shimkus, 
  submitted by Mr. Tonko.........................................   116
Letter of February 5, 2019, from Nat Kreamer, Chief Executive 
  Officer, Advanced Energy Economy, to Mr. Pallone, et al., 
  submitted by Mr. Tonko.........................................   119
Witness slides compilation, submitted by Mr. Tonko...............   121


 TIME FOR ACTION: ADDRESSING THE ENVIRONMENTAL AND ECONOMIC EFFECTS OF 
                             CLIMATE CHANGE

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2019

                  House of Representatives,
    Subcommittee on Environment and Climate Change,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Paul Tonko (chairman of the subcommittee) presiding.
    Members present: Representatives Tonko, Clarke, Peters, 
Barragan, McEachin, Blunt Rochester, Soto, DeGette, Schakowsky, 
Matsui, McNerney, Ruiz, Pallone (ex officio), Shimkus 
(subcommittee ranking member), Rodgers, McKinley, Johnson, 
Long, Flores, Mullin, Carter, Duncan, and Walden (ex officio).
    Also present: Representatives Castor and Sarbanes.
    Staff present: Jeffrey C. Carroll, Staff Director; Adam 
Fischer, Policy Analyst; Jean Fruci, Energy and Environment 
Policy Advisor; Tiffany Guarascio, Deputy Staff Director; 
Caitlin Haberman, Professional Staff Member; Rick Kessler, 
Senior Advisor and Staff Director, Energy and Environment; 
Brendan Larkin, Policy Coordinator; Dustin J. Maghamfar, Air 
and Climate Counsel; Tim Robinson, Chief Counsel; Mike 
Bloomquist, Minority Staff Director; Adam Buckalew, Minority 
Director of Coalitions and Deputy Chief Counsel, Health; Jerry 
Couri, Minority Deputy Chief Counsel, Environment; Jordan 
Davis, Minority Senior Advisor; Caleb Graff, Minority 
Professional Staff Member, Health; Peter Kielty, Minority 
General Counsel; Bijan Koohmaraie, Minority Counsel, CPAC; Ryan 
Long, Minority Deputy Staff Director; Mary Martin, Minority 
Chief Counsel, Energy and Environment; Brandon Mooney, Minority 
Deputy Chief Counsel, Energy; Brannon Rains, Minority Staff 
Assistant; Zack Roday, Minority Director of Communications; 
Peter Spencer; Minority Senior Professional Staff Member, 
Energy.
    Mr. Tonko. Good morning, everyone, and welcome to the 
Subcommittee on Environment and Climate Change's first hearing 
of the year. Now that the gavel has been found, we can move 
forward.
    Let me before I make my comments thank Chairman--former 
Chairman, always Chairman perhaps--John Shimkus for his great 
work in leading this subcommittee. I think we had an 
outstanding track record. And I enjoyed the years that he 
served as chair and I as ranking member. It is a pleasure to 
have served with you and now to continue to serve with you.
    I welcome all the colleagues of this subcommittee to this 
first hearing and to service through this subcommittee. And in 
general I think we have a lot of business ahead of us but I 
look forward to a great, spirited debate on all of these issues 
and bipartisan response to the solutions that we will develop.
    The subcommittee now comes to order. I recognize myself for 
5 minutes for an opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    In 1957, when I was the impressionable age of 8, Earth 
entered the Space Age with the launch of the Sputnik satellite 
by the Soviet Union. People around the world stopped what they 
were doing and looked the heavens. Nothing after that would 
ever be the same. Americans leapt into action, training to 
become scientists and engineers in droves. I was one of them.
    And I see that same motivation, wonder, and drive in many 
of the people today who are working and advocating to transform 
our economy to one that is cleaner, safer, and more just. They 
are advancing clean energy technologies, designing the 
infrastructure of the future that will help communities endure, 
and rethinking every industry we have ever known.
    It goes by many different names: Sandy, Harvey, Maria, 
Katrina, Campfire. But there is no question we have reached a 
new generation's Sputnik moment. How we respond to this threat 
and the opportunities it offers will indeed shape American 
lives for generations. In the 1960s our Government and our 
Nation's best rose to the Sputnik challenge by sending a person 
to the moon. Today our course remains unclear.
    How our committee responds at this inflection point will 
define our Nation for the next half-century and beyond. Will we 
rise to this challenge and tackle our most complex problems? 
Will we continue to be the world leader in science, 
engineering, and technology innovation? Will we make our 
country and our planet better for future generations?
    These questions are at the heart of our work here today. In 
1961, when President Kennedy promised to put a person on the 
moon by the end of the decade, what would have been the 
consequences of failure? Loss of scientific discovery? Damage 
to America's reputation? Ultimately it would have been 
remembered as another missed deadline, or failed call to 
action, or broken promise from a politician.
    With climate change, the cost of failure is existential. 
Failure to launch this next moonshot will result in deaths, 
devastation, and irreversible damage to our communities, our 
economy, and our environment. This is not an exaggeration. It 
is the assured outcome if we should fail.
    But America is a nation of pioneers and problem solvers. 
This climate challenge is not beyond us. Time is running out 
but it is not gone. Some of our colleagues may protest the cost 
of climate protection. And our constituents are already paying 
a heavy price after each and every hurricane, wildfire, and 
flood. Investing in solutions and resilience today will help 
manage and limit those risks and serve as a foundation for job 
creation, healthier communities, and economic opportunity. But 
let's be clear: There is no path forward more costly than for 
us to do nothing.
    Today we will hear from an expert panel to help us better 
understand those costs, along with possible solutions that 
Congress should consider. Dr. Brenda Ekwurzel coauthored the 
Fourth National Climate Assessment and can explain climate 
threats our Nation is facing.
    Mike Williams can discuss job opportunities that will come 
from a clean energy transition, including from building more 
resilient infrastructure to adapt to new climate realities.
    Reverend Leo Woodberry can tell us the importance of a 
transition that is equitable. We must address historic 
environmental injustices and ensure that benefits of a green 
transition are shared across every community.
    Rick Duke can discuss a range of potential policy and 
technology solutions for climate mitigation, many of which are 
cost-competitive and proven to work.
    In the decade since Congress last considered comprehensive 
climate legislation, green technologies have become more 
affordable and more effective. Today there are viable 
decarbonization pathways for many sectors of our economy that 
will enable our Nation and the world to achieve emissions 
reduction targets. Congress can give the certainty, price 
signals, and resources needed to achieve these goals.
    In 1961, we chose to go to the moon. Today we must make 
another choice. Will we have the clarity of mind and conscience 
to choose to address climate change with the urgency that 
scientists say is necessary? I say yes. Chairman Pallone says 
yes. Every Member on this side of the aisle says yes. And we 
are willing to work with the legions of Americans, countless 
businesses, local, State, and foreign governments, our U.S. 
Department of Defense, and our colleagues here on the other 
side of the aisle, and anyone else with ideas that can solve 
this crisis.
    To my friends across the aisle, I implore you, now is the 
time to join us. We want to work together, but inaction is no 
longer an option. We must act on climate.
    These issues were not always partisan. Our parties came 
together to pass the Clean Air Act and its amendments. And as a 
credit to Mr. Shimkus' leadership, this subcommittee found ways 
to work together to solve other seemingly intractable, multi-
decade stalemates. We have proven we can find common ground and 
we can get things done. We want to find solutions that work for 
all communities and all Americans, and we will not be deterred.
    We have science-based targets that we cannot afford to 
miss. The very real and urgent threat of climate change is not 
just the issue of the day, it is the issue of our time, the 
challenge of our time, the opportunity of our time. And I hope 
the hearings held by this subcommittee will help us find a 
path, a path forward where we can seize this opportunity.
    With that, I yield back.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared statement of Hon. Paul Tonko

    In 1957, when I was at the impressionable age of 8, Earth 
entered the space age with the launch of the Sputnik satellite 
by the Soviet Union.
    People around the world stopped what they were doing and 
looked to the heavens.
    Nothing after that would ever be the same. Americans leapt 
into action, training to become scientists and engineers in 
droves. I was one of them.
    And I see that same motivation, wonder, and drive in many 
of the people today who are working and advocating to transform 
our economy to one that is cleaner, safer, and more just.
    They are advancing clean energy technologies, designing the 
infrastructure of the future that will help communities endure, 
and rethinking every industry we have ever known.
    It goes by many different names: Sandy, Harvey, Maria, 
Katrina, Camp Fire. But there is no question we have reached a 
new generation's Sputnik moment. How we respond to this threat, 
and the opportunities it offers, will shape American lives for 
generations.
    In the 1960s, our Government and our Nation's best rose to 
the Sputnik challenge by sending a person to the moon. Today, 
our course remains unclear.
    How our committee responds at this inflection point will 
define our Nation for the next half-century and beyond.
    Will we rise to this challenge and tackle our most complex 
problems? Will we continue to be the world leader in science, 
engineering, and technology innovation? Will we make our 
country and planet better for future generations? These 
questions are at the heart of our work here today.
    In 1961, when President Kennedy promised to put a man on 
the moon by the end of the decade, what would have been the 
consequences of failure? Loss of scientific discovery? Damage 
to America's reputation? Ultimately, it would have been 
remembered as another missed deadline, or failed call to 
action, or broken promise from a politician.
    With climate change, the cost of failure is existential. 
Failure to launch this next moonshot will result in deaths, 
devastation, and irreversible damage to our communities, our 
economy, and our environment.
    This is not an exaggeration. It is the assured outcome if 
we should fail.
    But America is a nation of pioneers and problem solvers. 
This climate challenge is not beyond us. Time is running out, 
but it is not gone.
    Some of our colleagues may protest the costs of climate 
protection, but our constituents are already paying a heavy 
price after every hurricane, wildfire, and flood.
    Investing in solutions and resilience today will help 
manage and limit those risks, and serve as a foundation for job 
creation, healthier communities, and economic opportunity.
    But let's be clear, there is no path forward more costly 
than for us to do nothing.
    Today we will hear from an expert panel to help us better 
understand those costs, along with possible solutions that 
Congress should consider.
    Dr. Brenda Ekwurzel coauthored the Fourth National Climate 
Assessment and can explain climate threats our Nation is 
facing.
    Mike Williams can discuss job opportunities that will come 
from a clean energy transition, including from building more 
resilient infrastructure to adapt to new climate realities.
    Rev. Leo Woodberry can tell us the importance of a 
transition that is equitable. We must address historic 
environmental injustices and ensure that benefits of a green 
transition are shared across every community.
    Rick Duke can discuss a range of potential policy and 
technology solutions for climate mitigation, many of which are 
cost competitive and proven to work.
    In the decade since Congress last considered comprehensive 
climate legislation, clean technologies have become more 
affordable and effective. Today there are viable 
decarbonization pathways for many sectors of our economy that 
will enable our Nation and the world to achieve emissions 
reduction targets.
    Congress can give the certainty, price signals, and 
resources needed to achieve these goals.
    In 1961, we chose to go to the moon. Today, we must make 
another choice. Will we have the clarity of mind and conscience 
to choose to address climate change with the urgency that 
scientists say is necessary?
    I say yes. Chairman Pallone says yes. Every Member on this 
side says yes. And we are willing to work with the legions of 
Americans, countless businesses, local, State, and foreign 
governments, our U.S. Department of Defense, and anyone else 
with ideas that can solve this crisis.
    To my friends across the aisle, I implore you: join us! We 
want to work together, but inaction is no longer an option. We 
must act on climate.
    These issues were not always partisan. Our parties came 
together to pass the Clean Air Act and its amendments. And as a 
credit to Mr. Shimkus' leadership, this subcommittee found ways 
to work together to solve other seemingly intractable, multi-
decade stalemates. We have proven we can find common ground and 
get things done.
    We want to find solutions that work for all communities and 
all Americans, and we will not be deterred. We have science-
based targets that we cannot afford to miss.
    The very real and urgent threat of climate change is not 
just the issue of the day. It is the issue of our time. The 
challenge of our time. The opportunity of our time. And I hope 
the hearings held by this subcommittee will help us find a path 
forward where we can seize this opportunity. I yield back.

    Mr. Tonko. And the Chair now recognizes Mr. Shimkus, 
ranking--excuse me, Republican leader of the Subcommittee on 
Environment and Climate Change, for 5 minutes for his opening 
statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. First of all, let me congratulate you, Mr. 
Chairman. And thank you for the kind words. I am truly touched 
by those.
    We have had some policy differences over the past 6 years. 
We also enjoyed, as you identified, some significant bipartisan 
policy achievements during my chairmanship, in no small part 
because of the thoughtful work that you brought to the panel as 
a Democrat leader, and your very competent staff. I believe 
this subcommittee will be served by your leadership.
    Today's hearing ticks off a topic that will be challenging 
but not impossible to work through in a bipartisan manner. We 
all agree that extreme weather events and climate change 
presents risks to our communities and communities around the 
world. While we agree these risks should be addressed, we may 
disagree about what to do. If we are to reach an agreement on 
this issue, I believe we must look openly and broadly at 
potential solutions.
    Many climate policy advocates have been suggesting for 
years that if you agree climate change is real, then command 
and control policy prescriptions are the only way to address 
this problem. If you question these expensive solutions, you 
must not accept the problem.
    That is a false choice. And the amped-up partisan rhetoric 
it generates severely inhibits a full look at potential, 
practical policies that not only help reduce carbon dioxide 
emissions, but also ensure our Nation and its communities can 
grow and prosper.
    Recent projections by the International Energy Agency show 
that fossil energy, even with all existing and announced 
policies implemented, will likely be the dominant form of 
energy in our world system through 2040, and likely beyond. 
Wind and solar energy will serve a larger portion of 
electricity generation across the world and in the United 
States according to this data, but fossil energy and nuclear 
energy, a technology regrettably frowned upon by many climate 
policy advocates, will remain dominant.
    While future innovation could substantially change these 
projections, the stubborn route is that U.S. and global energy 
systems necessary for societies to develop, grow, trade, and 
prosper depend upon affordable and abundant energy and 
mobility. Policies that artificially raise the costs or 
availability of energy threaten to undermine this fundamental 
fact, which helps explain the 30-year failure of international 
climate agreements to significantly reduce global emissions, 
although the United States seems to be doing better than most 
of the countries that are in agreement.
    No nation seeking to improve the lives of its citizens will 
accept energy or transportation constraints, and neither should 
the United States if we want to maintain a robust economy, 
economic growth, and remain globally competitive for future 
generations.
    We could have a fuller conversation about accelerating the 
transformation to cleaner technologies if we accept that 
proposing top-down Government requirements to rapidly 
decarbonize the U.S. and global economies may not be the most 
realistic way to address the climate change problem.
    We should be open to the fact that wealth transfer schemes 
suggested in the radical policies like the Green New Deal may 
not be the best path to community prosperity and preparedness.
    And we should be willing to accept that affordable and 
abundant energy is a key ingredient for economic development 
and growth. After all, economic growth and economic resources, 
coupled with sound planning, infrastructure, and governance, 
increase local capabilities to minimize impacts of future 
extreme events.
    These are realities we should explore today and in future 
hearings if we want to develop sound environmental and energy 
policies to address climate risk. We should also focus on the 
ingredients behind the exceptional achievements of American 
know-how in energy, in technology and innovation that has led 
to world-leading prosperity, and making sure we can continue to 
foster these advances in other technology.
    The American shale revolution transformed our Nation's 
economic competitiveness and is driving cleaner electricity 
generation because of old-fashioned innovation, 
entrepreneurship, regulatory certain private capital, not 
bigger Government mandates. And let me also mention private 
property rights on these areas. Let's apply these lessons more 
broadly.
    Mr. Chairman, there are different approaches to dealing 
with climate change. Let's focus on solutions that work for the 
American public.
    And with that, Mr. Chairman, I yield back my time.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    First, let me congratulate you Mr. Chairman. While you and 
I had some policy differences over the past 6 years, we also 
enjoyed some significant bipartisan policy achievements during 
my chairmanship--in no small part because of the thoughtful 
work you brought to the panel as Democrat leader.
    I believe this subcommittee will be well served with your 
leadership.
    Today's hearing kicks off a topic that will be challenging, 
but not impossible, to work through in a bipartisan manner. We 
all agree that extreme weather events and climate change 
present risks to our communities-and communities around the 
world.
    While we agree these risks should be addressed, we may 
disagree about what to do. If we are to reach an agreement on 
this issue, I believe we must look more openly and broadly at 
potential solutions.
    Many climate policy advocates have been suggesting for 
years that, if you agree climate change is real, then command-
and-control policy prescriptions are the only way to address 
the problem. If you question these expensive solutions, you 
must not accept the problem.
    This is a false choice. And the amped up partisan rhetoric 
it generates severely inhibits a full look at potential, 
practical policies that not only help reduce carbon dioxide 
emissions but also ensure our Nation and its communities can 
grow and prosper.
    Recent projections by the International Energy Agency show 
that fossil energy, even with all existing and announced 
policies implemented, will remain the dominant form of energy 
in our global systems through 2040, and likely beyond.
    Wind and solar energy will serve a larger portion of 
electricity generation across the World and in the United 
States, according to this data, but fossil energy and nuclear 
energy--a technology regrettably frowned upon by many climate 
policy advocates--will remain dominant.
    While future innovation could substantially change these 
projections, the stubborn reality is, the U.S. and global 
energy systems necessary for societies to develop, grow, trade, 
and prosper depend upon affordable (and abundant) energy and 
mobility.
    Policies that artificially raise the cost or availability 
of energy threaten to undermine this fundamental fact, which 
helps explain the 30-year failure of international climate 
agreements to significantly reduce global emissions (although 
the United States seems to be doing better than most other 
nations).
    No nation seeking to improve the lives of its citizens will 
accept energy or transportation constraints, and neither should 
the United States if we want to maintain robust economic growth 
and remain globally competitive for future generations.
    We could have a fuller conversation about accelerating the 
transformation to cleaner technologies if we accept that 
proposing top-down Government requirements to rapidly 
decarbonize the U.S. and global economies may not be the most 
realistic way to address the climate change problem.
    We should be open to the fact that wealth transfer schemes, 
suggested in radical policies like the Green New Deal, may not 
be the best path to community prosperity and preparedness.
    And we should be willing to accept that affordable (and 
abundant) energy is a key ingredient for economic development 
and growth. Afterall, economic growth and economic resources, 
coupled with sound planning, infrastructure, and governance, 
increase local capabilities to minimize impacts of future 
extreme events.
    These are realities we should explore today and in future 
hearings if we want to develop sound environmental and energy 
policies to address climate risks.
    We should also focus on the ingredients behind the 
exceptional achievements of American know-how in energy, in 
technology, and in innovation that has led to world-leading 
prosperity--and make sure we can continue to foster these 
advances in other technologies.
    The American shale revolution transformed our Nation's 
economic competitiveness and is driving cleaner electricity 
generation because of old-fashioned innovation, 
entrepreneurship, regulatory certainty, and private capital--
not big Government mandates. Let's apply these lessons more 
broadly.
    Mr. Chairman, there are different approaches to dealing 
with climate change. Let's focus on solutions that work for the 
American public.

    Mr. Tonko. The gentleman yields back. And thank you, Mr. 
Shimkus.
    The Chair now recognizes Mr. Pallone, chairman of the full 
committee, for 5 minutes for his opening statement.
    Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Tonko, Chairman Tonko.
    Today's hearing on climate change is long overdue. We are 
feeling its effects now, and the influence of unchecked climate 
change is becoming more obvious every year. Experts have warned 
us for a long time that climate change would lead to more 
intense storms, extended droughts, longer wildfire seasons that 
burn hotter and cover larger areas, greater seasonal 
temperature extremes, melting of glaciers and ice sheets, and 
rising sea level.
    The predictions have proven true. And these scientific 
experts warn us that, as greenhouse gas pollution continues to 
grow, climate change effects will intensify as the planet warms 
to levels that people have not experienced any time in human 
history.
    Unfortunately, we are currently going in the wrong 
direction with respect to greenhouse gas pollution. The Fourth 
National Climate Assessment of the International Panel on 
Climate Change's recent report made clear that if we do not 
aggressively cut emissions now, we will jeopardize public 
health and safety, as well as our economic and national 
security.
    The science on climate change is indisputable. And I do 
want to thank--I listened to Mr. Shimkus' opening remarks, and 
I noticed that he basically said that he agrees that there is a 
major impact from climate change, suggested that innovation was 
certainly one of the ways that we deal with it. So, again, I 
want to say that I know that in the past we were never able to 
have a hearing on climate change when the Republicans were in 
the majority, but I am glad to see that our ranking member is 
saying that it's something that has to be dealt with and is 
real.
    I don't think that we need to debate the scientific facts. 
Instead, we must focus on solutions to the problems and must 
act now to avoid the most catastrophic consequences associated 
with climate change. The good news is that we already know the 
solutions. There are untapped opportunities to expand the use 
of renewable energy and to become more efficient with all the 
resources and energy we use. With focused investment and 
innovation, we can help transform industries and economic 
sectors that will find meaningful emission reductions more 
challenging.
    Meanwhile, States, local government, and individual 
businesses are moving forward to reduce emissions to meet our 
obligations under the Paris Agreement. And it is now time for 
the Federal Government to step up and help them in these 
efforts and spur further action in communities across the 
country.
    I know there are those who believe we can't address this 
problem because the costs are too high. But the costs of not 
acting are far higher and a lot more painful. In 2017, the U.S. 
experienced 16 natural disasters with costs totaling $360 
billion. This past year, disasters again cost over $100 
billion. The dollar figures are concerning, but the real 
tragedy is the loss of life and destruction of homes, 
businesses, and communities when these events occur.
    And tremendous, sustained efforts are required for 
communities to recover and rebuild. And I saw this firsthand in 
the aftermath of Superstorm Sandy in my district. Events 
disappear from the headlines in a matter of weeks, but the work 
to rebuild and recover takes years. And it is still going on in 
my district. Many people have not been able to return to their 
homes. Many businesses have not.
    We simply cannot afford to delay any longer. And we must 
discuss ways to help communities better adapt to the changes 
that we are already seeing. We need to modernize and upgrade 
our infrastructure to ensure vital services like water, sewer, 
electricity, telecommunications, and transportation are more 
resilient. And here, Mr. Shimkus, in particular, I think that 
we can work together with the Republicans. And this important 
work would not only make our communities safer and better 
prepared for extreme weather events, but it will also provide 
good-paying jobs and the modern, flexible infrastructure that 
will better support a robust economy in the future.
    We want to find innovative solutions that will help 
strengthen our economy by creating jobs in industries that will 
begin to repair the disparities found in so many vulnerable 
communities. And it is precisely those front-line communities 
that experience the worst effects of climate change and natural 
disasters and that are the least able to recover from them. 
Again, I saw it in my own district where some of the most 
vulnerable communities economically are the ones that still 
have not recovered.
    I think we can do better. We must do better. And these 
communities need to be engaged in the process of designing 
adaptation and mitigation measures to reduce pollution.
    So as we move forward, we hope to have our Republican 
colleagues as partners in these efforts. Certainly what has 
been said by Mr. Shimkus today gives me hope. The devastating 
effects of unchecked climate change do not know partisan or 
political boundaries. They effect us all. And I hope we will be 
able to find common ground and work together on solutions.
    And the U.S. has always been a global leader in science, 
technology, and industry. And our leadership on climate action 
and global transformation to a low-carbon economy is leading 
now. This hearing is the start of our efforts to maintain U.S. 
leadership and to put us on the path to a low-carbon and more 
prosperous future.
    And if I can say something, Chairman Tonko, I know that 
this has always been something that you cared so much about and 
worked on even when you were in the State legislature. So we 
are glad that you are the chairman. Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today's hearing on climate change is long overdue. We are 
feeling its effects now, and the influence of unchecked climate 
change is becoming more obvious every year. Experts have warned 
us for a long time that climate change would lead to more 
intense storms, extended droughts, longer wildfire seasons that 
burn hotter and cover larger areas, greater seasonal 
temperature extremes, melting of glaciers and ice sheets, and 
rising sea level. Their predictions have proven true. And, 
these scientific experts warn us that as greenhouse gas 
pollution continues to grow, climate change effects will 
intensify as the planet warms to levels that people have not 
experienced any time in human history.
    Unfortunately, we are currently going in the wrong 
direction with respect to greenhouse gas pollution. The Fourth 
National Climate Assessment and the International Panel on 
Climate Change's recent report make clear that if we do not 
aggressively cut emissions now, we will jeopardize public 
health and safety, as well as our economic and national 
security.
    The science on climate change is indisputable. We are not 
going to waste any time debating the scientific facts. Instead, 
we must focus on solutions to the problem. We must act now to 
avoid the most catastrophic consequences associated with 
climate change.
    The good news is that we already know the solutions to this 
challenge. There are untapped opportunities to expand the use 
of renewable energy and to become more efficient with all the 
sources of energy we use. With focused investment and 
innovation, we can also help transform industries and economic 
sectors that will find meaningful emission reductions more 
challenging.
    Meanwhile, States, local government and individual 
businesses are moving forward to reduce emissions to meet our 
obligations under the Paris Agreement. It's now time for the 
Federal Government to step up and help them in these efforts 
and spur further action in communities across the country.
    I know there are those who believe we cannot address this 
problem because the costs are too high. But, the costs of not 
acting are far higher and more painful. In 2017, the U.S. 
experienced 16 natural disasters with costs totaling $360 
billion. This past year disasters again cost over $100 billion. 
The dollar figures are concerning, but the real tragedy is the 
loss of life and destruction of homes, businesses, and 
communities when these events occur. Tremendous, sustained 
efforts are required for communities to recover and rebuild. I 
saw this first-hand in the aftermath of Superstorm Sandy in my 
district. Events disappear from the headlines in a matter of 
weeks, but the work to rebuild and recover takes years.
    We simply cannot afford to delay any longer, and we must 
discuss ways to help communities better adapt to the changes 
that we're already seeing. We need to modernize and upgrade our 
infrastructure to ensure. vital services like water, sewer, 
electricity, telecommunications, and transportation are more 
resilient. This important work will not only make our 
communities safer and better prepared for extreme weather 
events, but it will also provide good paying jobs, and the 
modern, flexible infrastructure that will better support a 
robust economy in the future.
    We want to find innovative solutions that will help 
strengthen our economy by creating new jobs and industries and 
that will begin to repair the disparities found in so many 
vulnerable communities. It is precisely these ``front line'' 
communities that experience the worst effects of climate change 
and natural disasters and that are the least able to recover 
from them. We can do better. We must do better. And, these 
communities need to be engaged in the process of designing 
adaptation and mitigation measures to reduce pollution.
    As we move forward, we hope to have our Republican 
colleagues as partners in these efforts. The devastating 
effects of unchecked climate change--do not know partisan or 
political boundaries. They affect all of us. I hope we will be 
able to find common ground and work together on solutions.
    We cannot transform our economy and society overnight, but 
every journey starts with a single step. The U.S. always has 
been a global leader in science, technology, and industry. And, 
our leadership on climate action and a global transformation to 
a low carbon economy is needed now. This hearing is the start 
of our effort to maintain U.S. leadership and to put us on the 
path to a low-carbon--and more prosperous--future.
    I thank the witnesses for participating in this important 
hearing. I look forward to your testimony today and to working 
with you to address the climate challenge before us.
    I yield back.

    Mr. Tonko. Thank you, Mr. Chair. The gentleman yields back. 
And, Chairman Pallone, I appreciate your comments.
    The Chair now recognizes Mr. Walden, the Republican leader 
of the full committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, thank you, Mr. Chairman. Again, 
congratulations on finding the gavel and using the gavel. We 
are delighted to work with you. And thanks for holding this 
hearing on climate change.
    It is no secret the Energy and Commerce Committee has the 
jurisdiction, the ability to find a bipartisan path forward to 
tackle this important issue that confronts not only our Nation 
but also the world. As you know, I spoke out early and 
forcefully, Mr. Chairman, about the unnecessary effort by 
Speaker Pelosi to create yet a separate select committee which 
lacks any legislative authority. Our able Members will 
certainly serve on that panel. It is as redundant as the last 
one she created more than a decade ago.
    With all this activity, it is important to highlight a few 
fundamentals at the onset. Climate change is real. The need to 
protect the environment is real. The need to foster a strong 
U.S. economy and grow American jobs is also real. And the need 
to prepare our communities for the future is real. Republicans 
on this committee are ready, willing, and able to have serious 
solutions-oriented discussions about how to address and balance 
these considerations.
    For instance, we believe that a longer conversation about 
the Democrats' Green New Deal is necessary. We have heard about 
general tenets of the plan for the U.S., such as all-renewable 
electricity generation by 2030, all-zero-emission passenger 
vehicles in just 11 years, a Federal job guarantee, a living 
wage guarantee, but we obviously have some concerns about the 
potential adverse economic employment impacts of these 
measures.
    At least one analysis has estimated that going to a 100 
percent renewable energy in the U.S. could cost a minimum of 
$5.7 trillion--trillion--dollars. It sounds like a huge sum for 
consumers and taxpayers to foot.
    The Republicans are focused on solutions that prioritize 
adaptation, innovation, and conservation. Just as America led 
the world in energy development, which reduced carbon 
emissions, we want America's innovators to develop the next 
technologies that will improve the environment and create jobs 
here at home. We want to help the environment for our children, 
and grandchildren, and their children. We also want the people 
who live in our districts in this country today, right now, to 
have jobs and to be able to provide for their families.
    These are not mutually exclusive principles. And I believe, 
Mr. Chairman, working together we can develop the public 
policies to achieve these goals.
    As the Republican leader of the committee, I will work to 
promote a better policy vision for the environment, one which 
supports and accelerates continued technological advances in 
energy and environmental practices to improve our quality of 
life. It ensures a sound regulatory environment where people 
have the confidence to invest their money to innovate and to 
create American jobs, one that improves information needed to 
understand future impacts and provide resources to communities 
to adapt and to prepare for these impacts, one that promotes 
America workforce development and training in energy-related 
industries, and one that recognizes the importance of open and 
competitive markets in the role the United States plays as the 
world's leading energy producer, innovator, and exporter of 
advanced technologies.
    Indeed, Republicans have a track record of supporting 
policies that protect the environment and ensure energy access. 
For example, in the last Congress we supported legislation to 
promote zero-emissions nuclear energy, and renewable energy 
including hydropower. Hydropower has great success as a clean 
energy source across the country, and especially in my district 
and my State, where 40 percent of our energy comes from 
hydropower.
    Legislation we passed into law in the last Congress will 
streamline the permitting process for closed-loop pump 
hydropower projects. We have such a project in the permitting 
process in my district that would power up to 600,000 Oregon 
homes in a closed-loop hydropower process.
    We also advanced legislation to promote energy efficiency, 
grid modernization, energy storage, natural gas, a more 
resilient electric grid, carbon capture and utilization, and 
better forest management to address wildfires and limit their 
air quality impacts. This is what happens after a fire. This is 
called post-fire wildlife habitat right here. It is nothing but 
ash and destruction of the habitat.
    Oregonians choke on smoke every summer from wildfires that 
burn across our poorly managed Federal forests, filling our 
skies with ash and polluting our airsheds with carbon dioxide, 
among other pollutants. Managing our forests not only reduces 
the risk of these catastrophic fires, but the Intergovernmental 
Panel on Climate Change say that sustainably managing our 
forests would create the longest sustained carbon mitigation 
benefit. So there is work we could do there.
    And the numbers show that our policies are working. In 
2017, U.S. carbon emissions were the lowest they have been 
since 1992, and are projected to remain steady in upcoming 
years, more than 10 percent below 2005 levels. Unfortunately, 
the Green New Deal ignores many of these important elements of 
our energy strategy and makes it more difficult to reach our 
shared environmental goals.
    We look forward to hearing from our witnesses today on 
these topics, especially Mr. Powell from ClearPath, which has 
promoted clean energy, advanced nuclear, and carbon capture, 
and Mr. Worthington of the U.S. Energy Association, which 
advocated for a diverse energy mix within the United States and 
the importance of energy access and affordability around the 
globe.
    So, when it comes to climate change, Mr. Chairman, 
Republicans are focused on solutions. That is why we back 
sensible, realistic, effective policies to tackle climate 
change. What we are deeply concerned about are plans we believe 
will harm consumers and cost American jobs and drive up our 
costs and not result in the kinds of goals we want to achieve 
mutually.
    So thank you for having the hearing. I yield back the 
balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Mr. Chairman, for holding this hearing on 
climate change. It is no secret that the Energy and Commerce 
Committee has the jurisdiction and ability to find a bipartisan 
path forward to tackle this important issue that confronts not 
just our Nation, but the world. As you know, I spoke out early 
and forcefully about the unnecessary effort by Speaker Pelosi 
to create a separate, select committee which lacks any 
legislative authority. While able Members will serve on this 
panel, it is as redundant as the last one she created more than 
a decade ago.
    With all this activity, it is important to highlight a few 
fundamentals at the onset. Climate change is real. The need to 
protect the environment is real. The need to foster a strong 
U.S. economy and grow American jobs is real. And the need to 
prepare our communities for the future is real. The Republicans 
on this committee are ready and willing to have serious, 
solutions-oriented discussions about how to address and balance 
these considerations.
    For instance, we believe that a longer conversation about 
the Democrats' Green New Deal is needed. We have heard about 
general tenets of the plan for the U.S.--such as all renewable 
electricity generation by 2030, all zero-emission passenger 
vehicles in just 11 years, a Federal job guarantee, and a 
living wage guarantee. We have serious concerns about the 
potential adverse economic and employment impacts of these 
types of measures. At least one analysis has estimated that 
going to 100 percent renewable energy in the U.S. could cost a 
minimum of $5.7 trillion--that sounds like a huge cost for 
consumers and taxpayers to foot.
    Republicans are focused on solutions that prioritize 
adaptation, innovation, and conservation. Just as America led 
the world in energy development that has reduced carbon 
emissions, we want America's innovators to develop the next 
technologies that will improve the environment and create jobs 
here at home.
    We want a healthy environment for our children, 
grandchildren, and their children. But we also want the people 
who live in our districts and in this country today, right now, 
to have jobs and to be able to provide for their families. 
These are not mutually exclusive principles. Working together 
we can develop the public policies to achieve these goals.
    As the Republican leader on the committee, I will work to 
promote a better policy vision for the environment, one which:
    <bullet> Supports and accelerates continued technological 
advances in energy and environmental practices to improve our 
quality of life;
    <bullet> Ensures a sound regulatory environment, where 
people have the confidence to invest their money to innovate 
and create American jobs;
    <bullet> Improves information needed to understand future 
impacts and provides resources to communities to adapt and 
prepare for those impacts;
    <bullet> Promotes American workforce development and 
training in energy-related industries; and,
    <bullet> Recognizes the importance of open and competitive 
markets; and the role the United States plays as the world's 
leading energy producer, innovator, and exporter of advanced 
technologies.
    Indeed, Republicans have a track record of supporting 
policies that protect the environment and ensure energy access. 
For example, last Congress we supported legislation to promote 
zero-emissions nuclear energy, and renewable energy including 
hydropower. Hydropower has great success as a clean energy 
source in my Oregon district and generates approximately 40 
percent of the electricity in my State. Legislation we passed 
into law last Congress will streamline the permitting process 
for closed-loop pumped hydropower projects. One such project in 
my district aims to generate enough power for 600,000 homes in 
southern Oregon.
    We also advanced legislation to promote energy efficiency, 
grid modernization, energy storage, natural gas, a more 
resilient electric grid, carbon capture and utilization, and 
better forest management to address wildfires and limit their 
air quality impacts.
    Oregonians choke on smoke every summer from wildfires that 
burn across our poorly managed Federal forests, filling our 
skies with ash and polluting our airsheds with carbon dioxide. 
Managing our forests not only reduces the risk of these 
catastrophic fires, but the Intergovernmental Panel on Climate 
Change says that sustainably managing our forests will create 
the longest sustained carbon mitigation benefit.
    And the numbers show that our policies are working--in 
2017, U.S. carbon emissions were the lowest they have been 
since 1992, and they are projected to remain steady in upcoming 
years, more than 10 percent below 2005 levels.
    Unfortunately, the Green New Deal ignores many of these 
important elements of our energy strategy, and makes it more 
difficult to reach our shared environmental goals. I look 
forward to hearing from our witnesses today on these topics, 
particularly Mr. Powell from ClearPath, which has promoted 
clean energy, advanced nuclear and carbon capture, and Mr. 
Worthington of the U.S. Energy Association, which has advocated 
for a diverse energy mix within the United States, and the 
importance of energy access and affordability around the globe.
    When it comes to climate change, Republicans are focused on 
solutions. That's why we back sensible, realistic, and 
effective policies to tackle climate change.
    What we are deeply concerned about are the Democratic plans 
we believe will harm American consumers and American jobs by 
driving up costs and pushing jobs overseas where environmental 
laws are far more lax. We can do better than old policies 
rooted only in over-regulation, excessive-taxation, and 
economic stagnation.
    Thank you, Chairman, and I yield back.

    Mr. Tonko. Thank you, Representative Walden. And the 
gentleman yields back.
    As chair, I remind Members that, pursuant to committee 
rules, all Members' written opening statements shall be made 
part of the record.
    I now introduce our witnesses for today's hearing. And let 
me thank each and every one of you for sharing your time and 
offering input on this very important topic. We do appreciate 
your participation.
    So we have from my left to right Dr. Brenda Ekwurzel, 
Director of Climate Science, Union of Concerned Scientists.
    Next to her is Mr. Rich Powell, executive director of 
ClearPath.
    Then we have Mr. Rick Duke, principal of Gigaton 
Strategies.
    Then Reverend Leo Woodberry, Justice First Tour, Kingdom 
Living Temple Church.
    Then we have Mr. Barry K. Worthington, executive director 
of United States Energy Association.
    And then finally, Mr. Michael Williams, deputy director of 
BlueGreen Alliance.
    We as a committee want to thank our witnesses for joining 
us today. We look forward to your testimony. At this time, the 
Chair will now recognize each witness for 5 minutes to provide 
his or her opening statement.
    Before we begin I would like to explain the lighting 
system. In front of our witnesses is a series of lights. The 
lights will initially be green at the start of your opening 
statement. The light will turn yellow when you have 1 minute 
left. Please begin to wrap up your testimony at that point. The 
light will turn red when your time expires.
    So, with that, Dr. Brenda Ekwurzel, again welcome. You are 
recognized for 5 minutes.

   STATEMENTS OF BRENDA EKWURZEL, PH.D., DIRECTOR OF CLIMATE 
  SCIENCE, UNION OF CONCERNED SCIENTISTS; RICHARD J. POWELL, 
  EXECUTIVE DIRECTOR, CLEARPATH; RICHARD D. DUKE, PRINCIPAL, 
   GIGATON STRATEGIES; REVEREND LEO WOODBERRY, JUSTICE FIRST 
CAMPAIGN, KINGDOM LIVING TEMPLE CHURCH AND NEW ALPHA COMMUNITY 
   DEVELOPMENT CORP.; BARRY WORTHINGTON, EXECUTIVE DIRECTOR, 
UNITED STATES ENERGY ASSOCIATION; AND MICHAEL WILLIAMS, DEPUTY 
                  DIRECTOR, BLUEGREEN ALLIANCE

                  STATEMENT OF BRENDA EKWURZEL

    Dr. Ekwurzel. Thank you, Chairman Tonko, Ranking Member 
Shimkus, and for the opening statements by Chairman Pallone and 
Ranking Member Walden, and the committee for providing me the 
opportunity to testify here before you today.
    I am Director of Climate Science at the Union of Concerned 
Scientists, and I also had the privilege of serving as one of 
the coauthors of the Fourth National Climate Assessment 
released in November. Before I share with you the advances in 
our understanding from these latest assessments, I want to turn 
to a recent example of the high cost of climate change.
    During the recent outbreak of extreme cold weather that 
gripped large parts of the Nation, a University of Iowa student 
and a University of Vermont student were counted among at least 
21 people who perished from consequences likely from the 
dangerous wind chill. Although it may seem counterintuitive, 
recent studies indicate that climate can cause unusually cold 
temperatures at mid-latitudes by disrupting the normal winter 
season polar vortex in the stratosphere.
    A good analogy to this disruption is a weak seal on a 
freezer door that periodically allows frigid air to flood into 
the room while warmer air rushes into the freezer. At the end 
of January, similarly, a cold blast spilled out of the Polar 
Regions and into the Midwest and expanded through to the 
eastern U.S., breaking wind chill records across. Yet Alaska 
experienced above-freezing temperatures and rain falling on 
snow, forcing the cancellation of mid-distance dog sled races 
that contestants use to compete for the long-distance races, 
the Iditarod.
    Evidence is growing that warmer-than-normal periods in the 
Arctic are associated with a greater chance for extreme winter 
weather in the eastern United States. This deadly cold snap is 
just a recent example of the changing nature of extreme events 
that scientists are studying. One goal is to provide earlier 
warning so local officials have more time to take precautionary 
measures and improve safety.
    Climate assessment provides the public and policymakers the 
most advanced warnings through summary and evaluation of the 
latest science. I will briefly share with you some findings 
with you today from the Intergovernmental Panel on Climate 
Change Special Report on Global Warming of 1.5 degrees Celsius 
above preindustrial levels, and the Fourth National Climate 
Assessment.
    So human-induced warming reached approximately 1 degree 
Celsius, or 1.8 degrees Fahrenheit, a warmer world. And what 
has that brought us? Research indicates that this warming has 
changed the behavior and severity of extreme events.
    For example, scientists found that global warming made the 
precipitation around 15 percent more intense for Hurricane 
Harvey that brought devastating flooding to Houston, and made 
it around three times more likely.
    So, at the present rate, global warming would reach 1.5 
degrees around 2040, and around 2 degrees around 2065. And 
every half a degree of global temperature increase has major 
consequences. For example, coral reefs have an immense variety 
of species and support fisheries that help feed many around the 
world. The Intergovernmental Panel on Climate Change Special 
Report assessed that coral reefs are projected to decline a 
further 70 to 90 percent at 1.5 degrees Celsius above 
preindustrial, and losses of nearly all coral reefs at 2 
degrees Celsius above preindustrial levels.
    To avoid surpassing 1.5 degrees Celsius, global carbon 
emissions would have to drop around 45 percent below 2010 
levels by around 2030, and reach net-zero emissions by the mid-
century. The special report asserts that to hold temperatures 
to 1.5 degrees would require ``rapid and far reaching 
transitions in energy, land, urban, and infrastructure'' at an 
``unprecedented scale'' with ``significant upscaling of 
investments in options.'' Given the scale of changes needed and 
the time to lay the framework, this is a make-or-break decade 
to make capital investments needed to reduce carbon dioxide 
levels, or the Paris Climate goals are unlikely to be achieved.
    The Fourth National Climate Assessment was released in 
November in accordance with the legal mandate of the 1990 
Global Change Research Act. And, increasingly, U.S. residents 
already recognize the consequences of climate change. Midwest 
forest products industry has experienced over the past 70 years 
2- to 3-week shorter frozen ground season suitable for winter 
harvests. The Great Lakes ice cover decreased on average 71 
percent from 1973 to 2010, with a recent rebound in the ice 
years of 2014 and 2015.
    Meanwhile, during the 2012 and 2017 winters, in Lake 
Ontario and southern Lake Michigan the temperatures never 
dropped below 39 degrees Fahrenheit. And that's a critical 
threshold for seasonal mixing of the waters. Without winter or 
spring seasonal mixing, the chance is for increases for low 
oxygen conditions, which are toxic to aquatic species.
    In another case, an extreme flooding event in Thailand 
caused a U.S.-based company to lose around half of its hard-
drive shipments during the last quarter of 2011. Consumers may 
not have realized this, but this temporarily doubled global 
hard-drive prices and drove up the costs for Apple, HP, and 
Dell.
    Climate change can exacerbate historical inequities. And I 
want to say that the projected costs in the labor is around 
$155 billion per year. And under a low-emissions scenario we 
could take a bite of nearly a half out of those damages. 
Extreme heat mortality could have damages towards the end of 
the century of over $140 billion per year. We could take a 48 
percent bite.
    Mr. Tonko. If I can ask you to wrap up, please.
    Dr. Ekwurzel. And I just want to say overall coastal 
property losses, the losses are real, climate change is real. 
We need to step up solutions at the root cause, which States 
and cities are doing today.
    Thank you very much.
    [The prepared statement of Dr. Ekwurzel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Tonko. Thank you. And we now move to Mr. Rich Powell. 
You are recognized for 5 minutes, Mr. Powell.

                 STATEMENT OF RICHARD J. POWELL

    Mr. Powell. Good morning, Chairmen Tonko and Pallone, 
Republican leaders Shimkus and Walden, and other members of the 
committee. Thank you for the opportunity to appear today.
    I am Rich Powell, Executive Director of ClearPath, a 
nonprofit that develops conservative policies that accelerate 
clean energy innovation. ClearPath supports flexible low-carbon 
technologies, nuclear, hydropower, carbon capture for both coal 
and gas, and energy storage.
    Climate change is an urgent challenge that merits action at 
every level of the government and private sector. It is too 
important to be a partisan punching bag. Climate change 
deserves a pragmatic and technology-inclusive agenda to make 
the global clean-energy transition cheaper and faster. It is 
conservative to hedge for this risk.
    Heavy industry is aggressively moving onto solutions to 
deal with climate issues. Southern Company is reducing their 
emissions in half by 2030, and will be low- to no-carbon by 
2050. Shell also aims to cut emissions in half by 2050. 
Notably, senior executives from Southern, Shell, and just last 
week BP are linking their pay to hitting emissions targets. 
These examples illustrate that the Federal Government should 
enable private-sector solutions through market-oriented 
policies.
    Crucially, we must also remember that climate change is a 
global problem. A molecule of CO<INF>2</INF> emitted on the 
other side of the world has the same impact as one released 
here. Since 2000, coal power generation in China nearly 
quadrupled. Bloomberg reports that new Chinese coal capacity 
remains planned roughly equivalent to the entire U.S. coal 
fleet. Abroad, China is financing another 100 gigawatts of coal 
in at least 27 countries. The expected emissions growth from 
developing Asian countries by 2050 alone would offset a 
complete decarbonization of the U.S. economy.
    More broadly, the share of global energy supplied by clean 
sources has not increased since 2005. Despite significant 
renewables growth, global emissions continue to rise. In other 
words, clean development is only just keeping up with economic 
development. Clean is not gaining ground. Clean tech available 
today is simply not up to the task of global decarbonization. 
It must represent a better, cheaper alternative so developing 
nations consistently choose it over higher-emitting options.
    We have a choice: That the Chinese and their partners shut 
down their coal-fired power plants at the expense of economic 
growth, or develop, demo, and export U.S.-based emissions 
control technologies.
    This technologies challenge is evident in the most 
ambitious plan yet from a major U.S. utility. Xcel Energy 
recently announced plans to reduce carbon emissions 80 percent 
by 2030 and 100 percent by 2050. Xcel noted they will require 
innovation to reach their 100 percent goal while remaining 
reliable and affordable for their customers. Growing their 
already impressive portfolio of renewables won't be enough.
    A serious debate on climate solutions must include a dose 
of political and technical realism. Let's not rush toward any 
impracticably hasty, exclusively renewable strategy in the U.S. 
that will be both costly and unlikely to reduce global 
emissions. If supporters of a Green New Deal truly believe 
climate change is an existential threat, they should focus on 
policies that reduce global emissions as quickly and cheaply as 
possible.
    So how do we change our trajectory? Well, we have done it 
before. There is no reason that clean technology needs to be 
more expensive or worse performing than higher-emitting 
technology.
    Take America's shale gas revolution, rooted in decades of 
public-private research partnerships. This R&D, coupled with a 
$10 billion alternative production tax credit, yielded combined 
cycle turbines, diamond drill bits, horizontal drilling, and 3D 
imaging. Markets took up the technology, increasing gas from 19 
to 32 percent of our power between 2005 and 2017, lowering 
emissions 28 percent.
    The same ingenuity that produced the shale boom can make 
that gas fully clean. Near Houston, NET Power is successfully 
demonstrating a groundbreaking zero-emission natural gas power 
plant. More broadly, it is an immensely promising time for 
public-private partnerships in U.S. clean innovation. Some 
examples:
    Form Energy is developing cheap, long-duration energy 
storage that may enable many more renewables. NuScale is 
licensing a small modular nuclear reactor, while Oklo and X-
Energy partner with our national labs on microreactors.
    The last Congress hasn't received the credit it is due for 
boosting low-carbon technologies. Your broadly bipartisan 
agenda enhanced critical incentives for carbon capture, 
renewables, and advanced nuclear, invested in clean R&D at 
record levels, and reformed regulations to accelerate the 
licensing of both advanced nuclear reactors and hydropower. One 
example: The 45Q tax incentive for carbon capture was supported 
by a vast bipartisan coalition, from environmentalists to labor 
to utilities to coal companies. Notably, seven national unions 
just collectively restated the need to include carbon capture 
and nuclear in any national climate policy.
    Going forward, given the scale of the climate challenge, we 
need to greatly increase the pace and ambition of our efforts. 
Let's not shy away from smart investments in technology 
moonshots to deliver lost-cost, high-performing, clean 
technology. Let's create stronger incentives to commercialize 
cutting-edge companies and deploy their technologies globally, 
and remove regulatory barriers to rapidly scaling clean 
technology.
    Bipartisan cooperation on climate change is essential under 
divided government, and attainable. In fact, it is the only 
chance our Nation will have to play a significant role in the 
global solution.
    Thank you again for this opportunity, and I look forward to 
the discussion.
    [The prepared statement of Mr. Powell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Tonko. Thank you, Mr. Powell.
    And next we will move to Mr. Rick Duke. You are recognized, 
Mr. Duke, for 5 minutes.

                  STATEMENT OF RICHARD D. DUKE

    Mr. Duke. Thank you, Chairman Tonko, Republic leader 
Shimkus, and members of the committee for inviting me to 
testify on the prospects for reducing greenhouse pollution 
through American leadership on technology and diplomacy. It is 
an honor to share with this committee my confidence that we can 
still contain the most costly and destabilizing climate 
impacts, but only if we choose to act to put our Nation on a 
path to net-zero greenhouse gas pollution by mid-century.
    In short, rapid climate action is strategic for both our 
economy and our national security. And we urgently need strong 
Federal policy to make it all happen.
    This is a momentum game--the faster we act, the easier it 
gets. Early support for emerging green technologies gives 
American entrepreneurs the chance to cut costs as they scale up 
production and learn by doing. As these costs come down, bigger 
markets open up, including for exports to countries that raise 
their ambition in response. And this in turn allows further 
cost reductions in global-scale economies.
    This virtuous cycle spurs the incredible progress we are 
seeing for climate solutions ranging from super-efficient 
lighting to renewables. And many of these originated in 
American labs and start-ups. To build on this momentum, we need 
to double down on cutting greenhouse gas pollution in the 
United States. And we know exactly what to do. It starts with 
quickly scaling up zero-carbon electricity. We have to broadly 
electrify vehicles, buildings, and much of industry, and we 
also have to cut non-CO<INF>2</INF> greenhouse gases.
    Over time, solutions that remove carbon dioxide from the 
atmosphere will play an increasingly important role. This 
includes restoring farmlands and forests through increased 
economic productivity, while also storing carbon in healthier 
soils and vegetation. At the same time, we need to kick start 
promising emerging technologies to directly extract 
CO<INF>2</INF> from the atmosphere and safely sequester it.
    These carbon dioxide removal solutions will allow us to 
achieve net zero by balancing out certain emissions that we 
don't know how to eliminate currently, such as methane and 
nitrous oxide from agriculture.
    Despite the imperative to get moving, though, some argue 
that other countries aren't doing much so we should hold off on 
cutting our emissions. But the facts are that our competitors 
are already moving. Every country other than the U.S. remains 
committed to the Paris Agreement. The EU and Canada both have 
carbon pricing in place that is strong.
    Mexico is moving to 35 percent clean electricity by 2024. 
And China has over 80 strong technology deployment policies in 
place that are propelling up to nearly $130 billion in 
renewables investment in 2017 alone. That is triple the level 
in the U.S.
    At the same time, China already accounts for well over half 
the electric vehicle sales, and two of the top three electric 
vehicle manufacturers in the world. Tesla is still in the 
number one slot, and GM is in the top ten.
    All this investment is driving down low-carbon technology 
costs globally, including batteries and solar electricity, both 
of which have come down about 80 percent since 2010. It has 
never been easier to cut greenhouse gas pollution. And all 50 
States can act now. In fact, at least 45 States have already 
installed utility-scale solar and wind at increasingly prices 
that are below conventional power. And we are making progress 
with carbon capture and storage, including the zero-carbon 
natural gas electricity pilot in Texas, and cleaner ethanol in 
the Midwest.
    But, unfortunately, we are not moving fast enough. Last 
year our energy CO<INF>2</INF> emissions were up over 3 percent 
after a decade of falling about 1.5 percent per year. And now 
Federal policy is creating headwinds. The last two budget 
proposals sought to cut energy R&D by as much as 70 percent. 
Thankfully, Congress strategically increased funding on a 
bipartisan basis.
    On deployment, the current administration is seeking to gut 
the Clean Power Plan, weaken vehicle standards, thereby 
threatening to cost drivers billions at the pump in higher 
gasoline consumption, and undermining measures to cut energy 
waste and methane leaks from our oil and gas systems. Instead 
of rolling back standards, we need stronger Federal investment 
in policy, both new legislation and vigorous implementation of 
existing law, to propel all low-carbon solutions forward.
    Many different policy packages could get the job done, but 
this ideally starts with at least doubling clean energy R&D, 
plus legislation that puts a price on pollution and equitably 
and productively uses resulting revenue. And we absolutely can 
and must do right by workers and others on the front lines of 
this transition, including those struggling with the decline of 
coal, and communities most impacted by pollution. Added all 
together, we could cut our emissions in half by 2035, on track 
to net zero by mid-century, while bolstering our technological 
and diplomatic leadership.
    Thank you. Look forward to the discussion.
    [The prepared statement of Mr. Duke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Tonko. Thank you very much, Mr. Duke.
    And now we will move to Reverend Leo Woodberry. Reverend, 
you are recognized for 5 minutes.

              STATEMENT OF REVEREND LEO WOODBERRY

    Reverend Woodberry. Thank you. Thank you, Chairman Tonko, 
and thank you distinguished members of the committee.
    I have been doing this work now for over 25 years dealing 
with issues of climate and environmental justice. I could begin 
by talking about being too big to fail. But if we talk about 
that, then we can also talk about how we should not have moved 
away from kerosene to electric lights, or how we should have 
protected the carriage and buggy whip industry rather than 
developing the auto industry. Or we could have said, et's keep 
the typewriter industry going and never develop a computer 
industry.
    So those are topics I can talk about. But what I would like 
to talk about is what we found last year when we conducted the 
Justice First Tour and went through 12 southeastern States and 
25 cities and talked to people on the front line, people who 
have been suffering the impacts of carbon emissions, pollution, 
and the impacts of climate change.
    So I am talking about people like the 90-year-old woman in 
Sellers, South Carolina, in Marion County who now has to 
elevate her home 7 feet in the air.
    I am talking about people who labored in our fields, 
cleaned our homes, and worked for employers who never paid into 
their Social Security and have to live off SSI checks of $600 
and $800 a month.
    These are the people who are being impacted. We don't have 
to wait 12 years for a switch to be flipped. Americans are 
suffering the impacts of climate change right now. People being 
displaced, communities are being destroyed. And we come here 
issuing the clear clarion call of hope. We need policy change. 
We need to desperately put our people to work.
    We can, like in the town of Sellers, South Caroline, they 
said that the flooding impacts were worse because of large-
scale logging, losing our natural defenses against flooding. 
Because the ditches had not been cleaned out in 25 years in 
this rural community.
    We can put our people to work elevating homes, cleaning out 
ditches, building bioswales to minimize flooding. We can pass 
legislation that will put in place community-based climate 
solutions. It is time to move beyond the false narrative that 
equates big utilities with renewable energy.
    Let's look at the justification. Utilities said, ``We could 
not exist in a competitive environment because we have to build 
such large infrastructure that we might not get a return on our 
investment.'' Solar and wind can exist in a competitive 
environment. We don't have to look just towards macro 
solutions. If we can put timers and do energy efficiency in 10 
million homes and reduce energy generation by as little as 200 
kilowatt hours a year, we will have made a significant 
difference. But in order to do this we have to be able to look 
towards people who desperately need work.
    We have counties, like Marion County, like Dillon County, 
like Darlington County, like counties all across this country, 
rural communities where people have to drive 25, 30, 40 miles 
each way every day because there are no engines of economic 
development in their community.
    I came here today to talk about the people along the Black 
Belt, the people of Flint, Michigan, the people along the I-95 
corridor of shame, the least among us, those who were forgotten 
about, who we turned our gaze away from while the same 
polluting facilities were allowed to be sited in their 
communities that have led to climate change, and the 
possibility of humanity no longer having civilization as we 
know it. We can debate forever whether or not climate change is 
real. But the problem is here. The problem is now. And we need 
to build a wall of protection around the citizens of this 
country, a wall of mitigation, a wall of adaptation, and a wall 
of resilience.
     Because the science is clear, whether we are looking at 
the Intergovernmental Panel on Climate Change or we are looking 
at our own National Climate Assessment, the storms are going to 
get worse. The hurricanes are going to become more intense. And 
we have to keep our forests standing in the ground because they 
are the greatest carbon sinks on this planet. And we don't have 
enough time to see whether or not some technologies might work.
    Mr. Tonko. Reverend, if you could wrap up.
    Reverend Woodberry. And so I just want to close by saying 
this: The time for action is now. And if we don't take action 
today, then we do a great disservice for generations to come.
    Thank you very much.
    [The prepared statement of Reverend Woodberry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Tonko. Thank you, Reverend.
    And now we will move to Mr. Barry K. Worthington. Mr. 
Worthington, you are recognized for 5 minutes.

                 STATEMENT OF BARRY WORTHINGTON

    Mr. Worthington. Thank you, Chairman Tonko, Ranking Member 
Shimkus, and members of the Subcommittee on Environment and 
Climate Change. My name is Barry Worthington. I am the 
executive director of the United States Energy Association. I 
have been in this role for 30 years, and have another dozen 
years in the energy business.
    The U.S. Energy Association has worked in transitional 
economies in developing countries for 25 years, over 25 years, 
with the U.S. Agency for International Development, and also 
with the Department of Energy, to expand the use of clean 
energy technology. Our members include energy production 
companies, energy efficiency companies, but also engineering, 
finance, legal, research, and consulting organizations. Our 
purpose is to convey information about the realities of global 
energy issues in the 21st Century.
    We are not a lobbying organization. We are not an advocacy 
organization. We are an educational association both by 
function and IRS tax status. My intent today is to offer 
information and observations to you and to convey an offer that 
the U.S. Energy Association is available to be a resource for 
you and your staff as you begin to tackle the priorities of the 
116th Congress.
    The risks of climate change are real, and industrial 
activity around the globe is impacting the climate. Addressing 
climate change is a challenge for our country. It affects every 
world citizen. While the industry adjusts to climate change, it 
continues to ensure American citizens have access to 
increasingly safe, affordable, reliable, and clean energy, 
which we all do in this great country.
    We are fortunate here. But we have between a billion and a 
billion-and-a-half global citizens with no access to commercial 
energy. Women in developing countries spend all day forging for 
sticks and animal dung to generate their cooking, lighting, and 
heating. This is dangerous. Burning firewood and animal dung 
indoors kills children. Indoor air pollution causes asthma and 
other health problems.
    Access to energy, on the other hand, provides improved 
health, education, economic development, and allows mothers and 
fathers to spend more time with their family instead of 
scrounging around to find animal dung to burn in their--inside.
    Central to energy access is lighting, for example. In 
developing countries, simple lighting reduces thefts, rapes, 
personal assaults, and other crimes. Access to energy paves the 
way for economic development in businesses such as simple cell 
phone charging enterprises, refrigeration for vaccines. Energy 
access improves people's lives.
    And our members are volunteering their time to work with 
their counterparts in developing countries to share technology 
and management practices in the developing countries. And we 
are trying to do our part.
    Our industry's challenge is to double the provision of 
energy services globally while reducing greenhouse gas 
emissions by 80 percent. Though there are 1 to 1.5 billion 
people with no access to energy, recognize there are also 
another 1.5 billion with inadequate access. And considering a 
global population growth of 2 billion leaves the energy 
industry to provide 5 billion more energy consumers access to 
energy services by mid-century.
    Many of these consumers will utilize fossil fuels because 
they are domestic, abundant, and affordable. We should work 
harder towards helping them use high-efficiency/low-emissions 
technology. USEA has been doing this for 25 years.
    And domestically we are expected to reduce greenhouse gas 
emissions by 80 percent. Our industry has undertaken a wide 
range of initiatives to reduce and avoid greenhouse gas 
emissions, and we are proud of our progress.
    For example, electric power carbon dioxide emissions 
declined 28 percent from 2005 to 2017. Methane emissions 
declined 18.6 percent from 1990 to 2015, even though we 
increased domestic natural gas production by 50 percent.
    We think the solution to the dual challenges of climate 
change and global access to safe, reliable, and affordable and 
clean energy is technology. And an all-of-the-above approach is 
essential. This means all of the renewables as well as all of 
the traditional fuels, including nuclear and fossil fuels. We 
need to work harder towards assuring that fossil fuel 
utilization uses high-efficiency/low-emissions technology, 
including carbon capture and storage.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Worthington follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Tonko. Thank you very much, Mr. Worthington.
    And finally, from the BlueGreen Alliance, Mr. Michael 
Williams. You are recognized for 5 minutes.

                 STATEMENT OF MICHAEL WILLIAMS

    Mr. Williams. Thank you, Chairman Tonko, Republican leader 
Shimkus, distinguished members of the committee. I am honored 
to be here alongside my fellow panelists and with you all as we 
strive to find common comprehensive solutions.
    As the chairman noted, my name is Mike Williams. I am the 
deputy director of the BlueGreen Alliance, a national 
partnership of labor unions and environmental organizations. 
BlueGreen Alliance unites America's largest labor unions and 
its most influential environmental organizations to solve 
today's environmental challenges in ways that create and 
maintain quality jobs and build a stronger, fairer economy.
    We believe that Americans don't have to choose between a 
good job and a clean environment or a safe climate. We can and 
we must have both.
    The world's leading scientific organizations have been 
unambiguous that climate change is a dire and urgent threat. 
And we need comprehensive action and solutions to rapidly drive 
emissions down now. I am heartened by the common commitment to 
action I am hearing today.
    Our communities bear the burden of climate change in 
wildfires, hurricanes, heat waves, droughts, and sea level rise 
it spawns. At the same time, our Nation is struggling with deep 
and crippling economic inequality. The majority of American 
families are less able to deal with these problems as their 
wages have fallen and their economic mobility and power in the 
workplace has declined.
    For too long the debate on the economic impact of climate 
action has been framed as either disaster or miracle, yet 
neither aligns with the complicated realities in which American 
workers live. This flawed debate has prevented us from 
addressing climate change at a level commensurate with the size 
of the challenge. The driving forces behind the challenges of 
climate change and inequality are intertwined, and we must 
tackle them together as equal priorities and place good jobs 
and working families at the center of a massive economic 
transformation.
    Thankfully, we are starting to see examples across the 
country of the kinds of solutions needed to achieve this 
outcome and justice for all Americans. Take Buy Clean 
California, a landmark law that requires State agencies to 
consider the embedded carbon emissions of industrial products. 
This law will reduce emissions globally, while also leveling 
the playing field for domestic manufacturers who are investing 
in clean, efficient manufacturing technologies and processes.
    Or in the State of Illinois, where the Future Energy Jobs 
Act provides sweeping changes to boost renewable energy and 
energy efficiency while protecting the jobs of workers at 
current energy generation facilities in the State, including 
existing nuclear power plants, and establishing standards for 
the solar industry to use a skilled and qualified workforce.
    Finally, critical Federal efforts, like America's landmark 
fuel economy and greenhouse gas standards for cars and trucks, 
drive investment, innovation, and job growth. Our research 
finds more than 1,200 U.S. factories and engineering facilities 
in 48 States, and 288,000 American workers, building 
technologies that reduce pollution and improve fuel economy for 
today's innovative vehicles.
    As significant transformation is needed to truly address 
climate change and inequality at the speed and scale demanded 
by the scientific reality and the urgent needs of our 
communities, it will require bold ideas and a guarantee that no 
worker or community is left behind. And instead of leaking jobs 
and pollutions overseas, we invest in our industries and our 
people here.
    This is a big task. But I cannot stress firmly enough that 
no solution to climate change or inequality will be complete if 
Congress does not move forward with an ambitious plan to 
rebuild and transform America's infrastructure so that it is 
ready for the significant transformation we need to tackle 
climate change. This plan must address all aspects of our 
infrastructure needs, from strengthening the electric grid and 
modernizing our water systems to reducing methane leaks in the 
natural gas distribution sector, improving surface 
transportation, investing in natural infrastructure, and making 
our schools, hospitals, and other buildings safer, healthier, 
and more energy efficient.
    These investments can reduce air and water pollution and 
make our communities more resilient to the impacts of climate 
change. They will also create millions of good jobs. But we 
have to make sure we tackle this challenge the right way.
    This means ensuring all products are subject to Buy America 
and Davis-Bacon; using project labor agreements and community 
benefit agreements, and local hire provisions; prioritizing the 
use of the most efficient, resilient, and cleanest materials 
and products; enhancing workforce training and development 
programs; increasing pathways to economic opportunities for 
communities and local workers, especially people of color and 
low-income communities; and prioritizing public funding and 
financing.
    Repairing America's infrastructure systems should be a 
bipartisan legislative priority for the 116th Congress.
    In closing, I want to reiterate that tackling the crisis of 
climate change, if done right, is a significant opportunity to 
ensure a more equitable society, increase U.S. global 
competitiveness, and create quality, family-sustaining jobs 
across the country.
    We look forward to working with this committee as you move 
forward with your agenda for the 116th Congress. Thank you 
again for the opportunity to testify.
    [The prepared statement of Mr. Williams follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Tonko. I thank you, Mr. Williams, and your fellow 
panelists, who have provided great information.
    So that concludes our opening statements. We will now move 
to Member questions. Each Member will have 5 minutes to ask 
questions of our witnesses. I will start by recognizing myself 
for 5 minutes.
    The United States emits around 6.5 billion metric tons of 
greenhouse gas each and every year. That pollution will outlast 
us by decades, and even centuries. As is clear from testimony, 
Americans are already feeling the effects of climate change, 
but most of the people in this room will be long gone when the 
worst consequences hit. The decisions we make today will 
determine the conditions for generations not yet born.
    Dr. Ekwurzel, I would like you to expand upon why it is so 
important that we start drastically reducing emissions now.
    Dr. Ekwurzel. Thank you, Chairman Tonko.
    Essentially what you said is correct, that for 20 percent 
of the carbon dioxide emissions it could be trapping heat day-
in, day-out for centuries. And also methane, nitrous oxide, 
these are the very important pollutants to get out of the 
atmosphere. In part, because you may have noticed that coastal 
properties is one of the big sectors for damage. And if you 
reduce emissions you can take over a 20 percent bite out of 
that. And it is because the legacy of sea-level rise has 
already been baked in with the historical emissions of heat--
trapping gases into our atmosphere.
    So think about what else we have baked in. It is very 
important to reduce emissions now so we have a chance at taking 
a 60 percent bite out of damages and extreme heat mortality in 
the labor sector, 50 to 60 percent. It is critical for saving 
lives to reduce emissions as soon as possible. Delay is super 
costly.
    Mr. Tonko. And the difference between a high-emissions or 
business-as-usual scenario compared to a low-emissions one, 
what basically is that difference?
    Dr. Ekwurzel. So, for example, in damage to the U.S. 
economy, the loss of labor cost, the range could be $20 to $200 
billion per year by the year 2090.
    If we went on the low-emissions pathway, we could take 
nearly a 60 percent bite out of that, or 50 to 60 percent. And 
that doesn't include adaptation. If we add adaptation in the 
mix, we can lower the costs immensely,.
    What we see is, in general, a very tight relationship with 
each global average surface temperature increase, a bigger bite 
out of the U.S. percentage GDP.
    Now, Ranking Member Walden mentioned some of the costs to 
transition to a clean energy economy. You compare that against 
some of these annual costs, you start realizing that an 
investment in reducing emissions is a very good investment.
    Mr. Tonko. Thank you.
    And, Mr. Duke, you have done a lot of work on 
decarbonization strategies. I, for one, believe we cannot take 
solutions off the table at this point. I hope today we can hear 
about the merits of many different options.
    Given all the potential pathways to decarbonize our 
economy, at this stage in the process how would you recommend 
Congress approach this challenge?
    Mr. Duke. Thank you, Chairman. I would start on two tracks 
to address this challenge, starting with the easiest part 
first. And that would include at least doubling clean energy 
and clean solution research and development investment. And I 
appreciate the bipartisan move in that direction over the last 
year or two.
    And at the same time, in the near term it is possible to do 
quite a bit of harvesting of low-hanging fruit. That includes 
things like measures to cut energy waste, to scale renewables 
even faster because they do need to go even faster than today's 
pace. We need to modernize the electricity grid, as has been 
noted. And do things that save consumers money, and cut energy 
waste, and build on what the States are already doing.
    At the same time, we need to go the next step. And the next 
step on a second track would be putting in place comprehensive 
policies that start with a price on carbon sufficient to put us 
on that path to net-zero greenhouse gas emissions by mid-
century. And we need to do this in a way that ensures that all 
communities benefit equitably and that we're investing the 
resulting revenue in a smart way. This will create broad-based 
economic incentives that help our entrepreneurs and innovators 
scale up and bring down costs yet further and create that 
global momentum that we need.
    Mr. Tonko. Thank you very much.
    I share the sentiment that we need to make progress now 
while we can, while developing our comprehensive economywide 
solution.
    I mentioned before that it has been a decade since the 
House last seriously attempted to address climate change. What 
has changed over the past 10 years that indicates that this 
time it can be different, Mr. Duke?
    Mr. Duke. Thank you for the question. There is quite a bit 
on the technology front that is worth just briefly summarizing.
    We have got all kinds of cost-effective solutions today, 
from wind and solar to energy efficiency. And electric vehicles 
are even cost effective for some drivers in high-mileage 
applications, like taxi drivers. You see them even here in DC.
    And you have got demand flexibility solution as well that 
are helping with the intermittency of some renewables.
    Down the line we see all kinds of things coming soon, like 
emerging technologies that electrify heating buildings through 
heat pumps, and electric vehicles that are cheap enough to 
compete on first cost with internal combustion engines, and 
dominate in terms of life cycle costs, will be available by 
many estimates within 5 years.
    And so this kind of technology solution set is a game 
changer and making it easier to act to cut pollution today.
    On the policy side, we have also learned a lot. And I think 
it is worth noting that pricing pollution clearly works. And 
what we have seen, in fact, is that countries that have done 
this, for example the European Union or our own States in the 
Northeast or California, have routinely seen that innovation 
means that the cost of the tradable permits under a cap-and-
trade system is much lower than they initially anticipated.
    And so we should think about that as a lesson to create 
investor certainty when we have these kinds of programs. We 
might want to add a price floor on those kinds of mechanisms. 
And in general we need to ratchet up standards regularly for 
things like efficiency so we don't lose momentum on fuel 
economy or appliance efficiency. And we need to stretch 
incentives further with competitive mechanisms like clean 
electricity standards.
    Mr. Tonko. Thank you. Thank you, Mr. Duke.
    And I now recognize Representative Shimkus as the 
Republican leader of this subcommittee for 5 minutes to ask 
questions.
    Mr. Shimkus. Thank you, Mr. Chairman. I'm going to turn my 
questions to Mr. Worthington.
    You state that the challenge for the energy industry is to 
double the provision of energy services globally while reducing 
greenhouse gas emissions by 80 percent. Can you break this down 
for me? What is driving the increase in global energy demand? 
And why are fossil fuels projected to remain the dominant 
source for energy globally?
    Mr. Worthington. Thank you, sir, for that question.
    Driving demand is multifold. It is a 2 billion population 
increase by the middle part of the century. It is providing 
access to energy for a billion to 1.5 billion people who don't 
have it now. This is captured in the United Nations 
Sustainability Goal Number 7. And it is increasing the 
availability of energy to those citizens today who don't have 
reliable, affordable access to energy.
    There are countries in, for example, in Africa and Asia 
where electricity might be available 3 to 4 hours a day. And 
that just renders an economy helpless. You can't operate 
industrial facilities with electricity only being available 3 
or 4 hours a day.
    So those are the drivers of demand.
    On the production side, you know, we work in dozens and 
dozens of countries. We are in touch daily with the people who 
operate energy systems in other countries. And in China, India, 
Indonesia, Vietnam, South Africa, Colombia, so on and so forth, 
they all tell us they have every intention of continuing to use 
their domestic fossil energy resources because they are 
domestic, they don't have to be imported, they are abundant, 
and they are affordable.
    And I have had business people tell me, ``Don't pay 
attention to what our government leaders say about us, we are 
going to use fossil''----
    Mr. Shimkus. OK, wind this up because I have got a couple 
more questions for you, so.
    Mr. Worthington. OK. ``We are going to continue to use 
fossil energy.''
    Mr. Shimkus. Thank you. What is the scale of transition 
that would have to take place to reduce energy system emissions 
by 80 percent?
    Mr. Worthington. Well, we would have to deploy every type 
of low-carbon/no-carbon technology that is possible. This truly 
becomes an all-of-the-above, and recognizing that countries are 
going to continue using fossil fuels.
    Mr. Shimkus. Well, let me ask this: Can the world do that 
with existing technology? Can they do it now?
    Mr. Worthington. We can't do it today, no. We need 
technology advancement all across the board, advanced nuclear 
systems, better energy storage, better renewables, and carbon 
capturing and the like.
    Mr. Shimkus. Which I think it speaks to the research and 
development equation that a lot of you have supported. Because 
we can't do it now, but with R&D and continued dollars we may 
be able to get there eventually. Correct?
    Mr. Worthington. If we can put a man on the moon, we can 
solve the climate problem.
    Mr. Shimkus. My friend McNerney would say it is an 
engineering problem, right? He is right there. He is a 
Californian, so.
    That is right. You are going to be a long time before you 
get to ask questions.
    Some climate change proponents want to move fully away from 
fossil energy. Is your experience in this reasonable?
    Mr. Worthington. Impossible.
    Mr. Shimkus. Is there another way at the problem where the 
benefits of affordable energy help us actually address climate 
risk?
    Mr. Worthington. Yes. By deploying technologies that reduce 
the CO<INF>2</INF> output from fossil energy: high-efficiency/
low-emissions technologies.
    Mr. Shimkus. Yes, I think you weaved a great story in your 
opening statement. I think we all know people who are in 
different aspects, maybe in the mission field in underdeveloped 
countries. And I think understanding--and the Reverend is 
here--and we are concerned about our brother, and we are 
supposed to be our brother's keeper, bringing electricity to 
underdeveloped countries helps their livelihood, helps them 
develop, helps them or their State.
    So that is part of the whole discussion as we deal with 
this, not just as a United States solution but as a solution 
that will affect the entire world.
    You are the current chairman of the Committee on Cleaner 
Electricity Production for Fossil Fuels for the United Nations 
Economic Commission for Europe and a member of the Sustainable 
Energy Committee for the U.N. Commission. How would you 
describe the role of fossil fuels in meeting U.N. 
sustainability goals?
    Mr. Worthington. The U.N. Sustainability Goal Number 7 is 
energy access. And the use of traditional fuels all around the 
world are critical to achieving that goal.
    Mr. Shimkus. Thank you.
    Mr. Chairman, I will give you the 2 seconds left.
    Mr. Tonko. Thank you. Thank you. The gentleman yields back.
    Now the Chair recognizes Representative Pallone, full 
committee chairman, for 5 minutes to ask questions.
    Mr. Pallone. Thank you. I just wanted to emphasize, Mr. 
Chairman, the priority for our committee in addressing climate 
change. And to that end, I do believe we can work together, and 
it will strengthen the economy and create more good-paying jobs 
in addition to protecting the environment through investments 
in clean energy and resilient infrastructure.
    So I want to start with Dr. Ekwurzel. What does the Fourth 
National Climate Assessment say about the anticipated effects 
of climate change on our Nation's infrastructure?
    Dr. Ekwurzel. It is we do need to build a more resilient 
infrastructure in the United States to deal with the earlier 
snow melt in the western mountains, and providing water that is 
escaping out of water sheds that we could instead harness for 
water resources, fighting wildfires, and other aspects. We need 
to upgrade our 20th century infrastructure to deal with the 
21st century climate impacts. And that is a wise investment.
    Mr. Pallone. Well, I believe very strongly that if we are 
going to do something on a bipartisan basis to address climate 
change that a major infrastructure bill and putting provisions 
in that bill will probably be the thing that we can most easily 
do on a--maybe ``easy'' is not the word, but that we can most 
likely do on a bipartisan basis and get President Trump to 
sign.
    But do we have the tools to address this? In other words, 
how do we make--how can we build and repair infrastructure in 
ways that reduce pollution? Give us some ideas and how feasible 
that is.
    Dr. Ekwurzel. Sure. When you take climate change risks into 
account, you end up having solutions, such as on the coastal 
areas, of nature-based solutions that are more resilient to the 
different types of hazards that climate-induced extreme events 
throw your way, and they suck up more carbon. So that is 
important and helps reduce emissions.
    However, if we do other types of infrastructure decisions 
that do not take into account the risks or the increased 
emissions that may result, we could make it, you know, have 
maladaptive options. We have to learn as we go and start as 
soon as possible.
    Mr. Pallone. You are saying that we have to be careful if 
we do a major infrastructure bill that we actually, you know, 
build in these provisions that will help address climate 
change, otherwise it might make it worse?
    Dr. Ekwurzel. Yes. And we have a lot of folks that are 
stepping up with lots of interesting designs once these 
incentives are unrolled.
    Mr. Pallone. All right, let me ask Mr. Williams about job 
opportunities associated with expanding clean and renewable 
energy. How do we ensure that, you know, that what we do with 
clean and renewable actually creates jobs and supports and 
strengthens the middle class?
    Mr. Williams. Sure. I appreciate the question, Mr. 
Chairman.
    Mr. Pallone. And, again, by reference to infrastructure, if 
you could.
    Mr. Williams. Yes, absolutely. Infrastructure is a 
phenomenal way to do that. So direct investment in 
infrastructure across systems, especially in the electricity, 
in the energy grid, so both the deployment of energy for 
heating and transportation, as well as electricity. So directly 
investing in that area of infrastructure is incredibly 
important. But doing so in a way that advances strong labor 
standards or incorporates strong labor standards.
    So what we think of as basic items like prevailing wage 
standards, buy American, standards that make sure that when 
direct Federal investment goes into these projects that we are 
ensuring that high quality----
    Mr. Pallone. Give me some examples. You mentioned the 
electricity grid. What else? What about pipelines? What about, 
you know, electric vehicles?
    Mr. Williams. Absolutely. So, for us to deploy electric 
vehicles across the country, we will need a massive upgrade in 
electric vehicle infrastructure, charging stations, so on and 
so forth, across the country. That is an incredibly important 
one.
    You mentioned pipelines. Water infrastructure is absolutely 
critical. We often don't realize the amount of energy we use 
pumping water through our system. And when you are leaking 
water out of leaky old systems, you are losing energy and 
increasing pollution. So, simply by upgrading water 
infrastructure systems, we actually would save energy and 
reduce pollution. And all of that could and should be high-
quality job creation.
    Mr. Pallone. And I, you know, I hear in New Jersey there 
are all kinds of pipelines being built. And, you know, 
different people are for it or against it. But I keep reminding 
them that, rather than focusing on new pipelines, why not focus 
on repairing existing, even for the natural gas? I mean, you 
can do a lot with maintenance and repair there that makes a 
difference in terms of climate change too, right? It is not 
just water, it is also natural gas and----
    Mr. Williams. Yes. So we have long had a campaign for a 
number of years on repairing and replacing natural gas 
distribution systems, the distribution systems under the city 
that deliver natural gas to homes and businesses so that they 
can heat properly. And those systems are old and they are leaky 
and they can be dangerous, so repairing them should be an 
absolute priority, not only because of the pollution that would 
save but the high-quality job creation, as well as the safety 
concerns.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes Representative Walden, full 
committee Republican leader, for 5 minutes.
    Mr. Walden. Thank you, Mr. Chairman. And thanks----
    Mr. Tonko. Five minutes to ask questions.
    Mr. Walden. Thank you. And thanks again for having this 
hearing. I want to thank our panelists. Your testimony really 
will inform our work, and we appreciate it.
    And, Mr. Williams, I appreciate your comments about, I 
believe you talked about the grid and improving drinking water 
supplies and things of that nature. I think we did 12 hearings 
in the last 2 years on grid adequacy, security. As we look to 
integrate new resources onto the grid, we have got to make sure 
it will handle the new renewables and the spikes in power. And 
so, I think the committee did good bipartisan work there. And, 
of course, we reauthorized, for the first time in about a 
decade, the modernized Safe Drinking Water Act to deal with 
some of these issues.
    And we tackled some of the pipeline siting issues as well. 
And small-scale hydro and irrigation districts that have put 
their open canals into pipes, pressurized the systems, and put 
a little hydro facility in and now generate enough power for 
3,000 homes just in central Oregon. So we streamlined some of 
the licensing there for hydro, which is an area where we get, 
you know, carbon-free renewable energy. And to your point, we 
manage that precious water very carefully.
    Dr. Ekwurzel, I am curious. You mentioned wildfires. My 
district is subject to it. As I pointed out, this is habitat. 
The committee twice held hearings on the human effects of the 
wildfire smoke. And scientists told us between 2,500 and 25,000 
people die prematurely every year from consuming wildfire 
smoke.
    And we had other forest scientists tell us that part of the 
problem in the west is overstocked stands, that historically 
you would have 70 trees per acre and today you have 1,000 trees 
per acre. And, of course, we know trees are pumps, they take 
water out of the ground.
    As you look at some of this science is that--knowing the 
effects of wildfires--is that something your organization would 
advocate for, is modern forest management practices to reduce 
excess fuel loads?
    Dr. Ekwurzel. I had the opportunity to be in Oregon with 
Forest Service scientists while fires were going. And seeing 
the sort of native practices to maintain more healthy forest 
reserves, definitely prescribed burns, other types of actors, 
are really important. At the same time you want to keep the 
carbon of the forests being a net storage for a long time----
    Mr. Walden. Right.
    Ms. Ekwurzel [continuing]. Rather than we really do need 
advances in understanding how to keep wildfires safe and keep 
populations down-smoke, shall we say. Because there were 
studies that it is almost like smoking several packs of 
cigarettes----
    Mr. Walden. Oh, it is awful. Awful.
    Ms. Ekwurzel [continuing]. If you are in a summer situation 
breathing this smoke.
    Mr. Walden. Yes.
    Dr. Ekwurzel. Which we did breathe some of that Oregon 
smoke.
    Mr. Walden. We were suffering under this for 6 weeks. Worst 
air quality in the world, absent Beijing. Or I mean, there were 
a couple of countries around the world that just at different 
periods had worse. But my district faced this all summer, 
summer after summer.
    And we know the prescription is going to reduce--we are 
always going to have fire, we are always going to have 
hurricanes, what do we do, though, to minimize the impacts? So 
thank you for that.
    Mr. Powell, as you have indicated, we have been pursuing 
policies on the committee to promote a range of clean 
technologies from nuclear energy, hydropower, grid 
modernization, energy efficiency, and battery storage. But, 
clearly, we all know what work needs to be done.
    The chart on page 2 of your written testimony shows the 
transition to a zero-emissions energy system is not yet 
happening globally, that clean energy is just keeping up with 
energy demand. And we heard that, I think, from Mr. 
Worthington, too, about the demand out there. But nations still 
strive for simply having electricity.
    How do we build on what we have done domestically so far to 
increase the pace and scale of technological innovation? And 
can we do this without imposing economically harmful 
regulations? And how does deregulatory policy help in 
innovation?
    Mr. Powell. If we are taking a global lens on this 
problem--first, thank you for your leadership in the last 
Congress to expand many of these policies--we are taking a 
global lens on this problem, the key is making clean technology 
cheaper, not traditional energy more expensive. If we are 
making clean technology cheaper, then we are focused on things 
like, to Chairman Tonko's point, moonshot programs to set very 
aggressive technology goals, for example, at the Department of 
Energy, and develop most of our resources toward achieving 
those very aggressive cost and performance goals. And then we 
can do more to set targeted incentives that work with markets 
to help scale up these technologies and get some of the scale 
and learning-by-doing benefits that Mr. Duke discussed.
    Then we can still do a great deal, for example, in 
streamlining permitting for new hydro projects. It still, 
despite the great work of this committee, takes far too long to 
put a new pumped hydrostorage facility in place or to relicense 
an existing dam, or to power up a nonpowered hydro facility.
    Mr. Walden. It seems to me we have led in energy 
development, clean energy around the globe. And certainly with 
fracking and natural gas replacing 16 gigawatts of coal, that 
has made a difference around the world and here at home. And I 
just want to see America lead in these efforts. And obviously 
we know industries are going to have to step up to the plate 
here too, but I sense they are willing to.
    So thank you, Mr. Chairman, again. My time has expired. And 
I appreciate all the testimony of our witnesses. Thank you for 
participating.
    Mr. Tonko. Thank you. The gentleman yield back.
    The Chair now recognizes Representative Peters from 
California.
    Mr. Peters. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    We all know the causes of climate change. I respect and 
appreciate hearing from the witnesses. Now we need to identify 
the practical ways to stop it, whether that is through 
regulation, deregulation as in the example of hydropower, 
putting a price on carbon--I think that is probably useful--
carbon capture, R&D, or some combination. Some of these are 
more feasible than others. But let me be clear, feasible is not 
a euphemism for lack of ambition, it is just the opposite. 
Feasible means achievable.
    And I want to say from the bottom of my core is that we 
have to do this in a bipartisan way. What I have learned here 
is that if it is not bipartisan, it won't pass. And if it is 
not bipartisan, it won't last. And I really want to make sure 
that we get everyone on board.
    If it was up to me, we would enact a national version of 
SP100, which commits California to 100 percent carbon 
neutrality by 2045. We would take those steps. It is not up to 
me. It is not up to any single one of us to do that. So I am 
looking forward to working with everyone on this committee to 
make progress.
    We know we have to transition to a clean energy economy. 
There is not widespread agreement in either party what clean 
energy means. Maybe it's 100 percent renewables to some people, 
renewable electricity for some other people. And whether 
renewable electricity is all zero- and low-carbon sources of 
renewables or net zero, we can talk about that. But there is a 
need to move.
    And I also just want to, finally, note the presence of 
Reverend Woodberry here. There is a moral component to this 
too. And I am aware of Pope Francis speaking out on this as 
well as the Evangelical Environmental Network.
    Let me ask a couple questions of the witnesses. I will 
start with Mr. Powell.
    Climate models show that we are going to need significant 
deployment of current and new clean energy technologies, 
including renewables, nuclear, carbon capture renewal, removal. 
While regulation is an important driver for technology 
deployment in the U.S. to help global emissions reductions, one 
of the most important things we can do is to lead on clean 
energy innovation.
    What is the Federal Government not doing right now that we 
should be doing to accelerate the deployment of these 
technologies?
    Mr. Powell. Well, first let me thank you, Representative 
Peters, for your leadership, especially in nuclear innovation 
and cosponsoring the Nuclear Energy Innovation Capabilities 
Act, which we were pleased to see passed through Congress last 
year. That set a good precedent for creating a test bed in the 
Federal Government for developing and expanding these 
technologies.
    And so now I think the next step is, well, how can we go 
further? And how can we use other powers of the Federal 
Government to ramp these up more quickly? I think a good idea 
would be something like the Nuclear Energy Leadership Act, 
which takes the next step. It sets an aggressive goal to 
demonstrate multiple advanced reactor technologies within the 
next decade.
    It expands the power of the Federal Government to use its 
PPA authority to purchase some of the power from those 
reactors, to get them set up, and to get them financed.
    It expands the availability of fuel that they would use.
    And I think we could take those kinds of approaches and 
apply it across all of the different clean energy technologies 
in order to scale them up more quickly.
    Mr. Peters. OK. I am interested in talking to all of you 
about deployment as well on other technologies.
    Mr. Williams, I believe action on climate change is an 
opportunity to create economic growth. But it is undeniable 
that a shift away from fossil fuels will have an impact that is 
tough on certain sectors. I think we need to provide workers in 
those sectors with a path to jobs that pay just as well or 
better, including retirement benefits and protections, the kind 
of jobs that can support families.
    In your testimony you talked about specific things the 
committee could do in an infrastructure package. What do you 
see as the most important things for Congress to include in any 
climate legislation to protect workers?
    Mr. Williams. Thank you for that question, Mr. Peters. We 
agree completely. That is a critical issue. In my verbal 
testimony I made sure to lean into the statement that we cannot 
let any workers or communities be left behind in this effort.
    There are a number of ways to do that. And the best way--
among the best ways--is to direct the investments that would 
come from this to workers and communities that may be harmed, 
but just generally a commitment that we want to actually retain 
as many jobs as possible, first and foremost. And then, if that 
is unavoidable, make sure that there is that deep commitment, 
as you mentioned, to ensure that wages, benefits, healthcare, 
so on and so forth, people are taken care of throughout that 
process and that there is significant economic development in 
communities that see that dislocation.
    Mr. Peters. We have seen, I think, a lot of progress in 
California that we can learn from as well on that front.
    Finally, I just want to say with respect to Mr. 
Worthington, I haven't had a chance to ask you a question, but 
we talk about all the people who are underserved in terms of 
energy around the world, it strikes me that the cell phone is a 
good thing to look at. You know, a lot of places without phones 
didn't build out whole set of sort of telephone grids, 
analogous to the energy grid, they did essentially microgrids 
with cell phones.
    And I would suggest that a large part of our foreign policy 
should be the deployment and promotion of microgrids, just like 
the United States Marine Corps has at Camp Pendleton near my 
district, that don't rely on a centralized fossil fuel-based 
source but can rely heavily on renewables and on storage. And I 
think it is very feasible that we should really make that part 
of the mix.
    Mr. Chairman, I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair recognizes Representative McMorris Rodgers.
    Mrs. Rodgers. Thank you, Mr. Chairman, and all of the 
witnesses that are here today. I appreciate you being here and 
sharing your perspective on the environment.
    As you may know, I come from Washington State. And we are a 
leader in hydropower production. And because of research and 
innovation, new technologies, we are seeing even better salmon 
returns because of the fish, new, improved fish ladders and 
turbines. You know, we could double that hydropower without 
building a new dam in America simply by investing in 
hydroelectricity also. Only 3 percent of the dams actually 
produce electricity. And this is a clean, renewable, reliable, 
affordable source of electricity.
    So I wanted to start with a question to Mr. Powell. In the 
last Congress, I led legislation to streamline the hydropower 
licensing process. It takes on average 10 years to relicense a 
dam right now in America, compared to 18 months for natural 
gas. In your view, how does hydropower fit into the bigger 
picture? And what are we risking with proposals such as the 
Green New Deal that ignore the positive environmental benefits 
of hydropower?
    Mr. Powell. First, thank you, Representative McMorris 
Rodgers for your leadership on hydropower and preserving and 
expanding this very important resource. As you know, 
historically hydropower has been the most important of our 
renewable resources in the United States, and is appropriately 
viewed as a renewable energy resource right alongside wind, and 
solar, and biomass, and geothermal, and other renewables 
resources.
    In many ways it is the most valuable renewable resource for 
three reasons:
    First, it has the highest capacity factor of the renewable 
resources, so it is available for more of the year.
    Second, it is a flexible resource. It can be turned on and 
off, and ramped up and down in a way that many other renewables 
resources cannot be.
    And third, it can also be part of a storage solution. So 
pumped hydropower can serve as a, you know, vast battery. In 
fact, the very largest storage facilities in the United States 
are pumped-storage hydro facilities.
    So we see expansion of hydropower, either by powering up 
nonpowered dams or certainly ensuring that our existing 
hydropower facilities around the country are relicensed, and 
that we can continue to get good use out of them, and 
modernizing those facilities as key priorities of the clean 
energy portfolio.
     Mrs. Rodgers. What do you think Congress could do to 
expand hydropower production in the United States? And why do 
you think that should be a part or a central part of a climate-
focused policy?
    Mr. Powell. So it needs to be a central part of a climate-
focused policy. As Chairman Tonko said, at this point the 
climate challenge is too urgent to leave any of our tools off 
the table. And so certainly the largest renewable resource 
can't be left out of that solution.
    The idea that we would depower all of that hydropower, 
which I believe powers between 6 and 8 percent of our power 
grid right now, and replace it with new power, you know, the 
billions of wasted dollars that would be spent in doing 
something like that would be very counterproductive to a 
climate solution, and would certainly not be a cost-effective 
way to advance climate policy.
    Mrs. Rodgers. As we add more intermittent renewables to the 
grid like wind and solar, grid-scale energy storage will be 
critical to ensuring a flexible and resilient system that can 
deliver affordable and reliable electricity to consumers when 
the wind isn't blowing or the sun isn't shining. I share 
ClearPath's goals to expand energy storage.
    Last Congress, we passed legislation. Mr. Griffith led it. 
We have also upped research dollars for new, innovative energy 
technology. I rep--or I am very close to the Pacific Northwest 
Laboratory. They are doing a great work in this space.
    Can you just help us understand more about what is going on 
in the private sector and what specifically we need to do here 
in Congress to accelerate innovation in energy storage?
    Mr. Powell. Sure. Well, first I should acknowledge PNNL's 
leading role in the energy storage innovation space. They have 
pioneered some of the most promising new technologies that are 
already being scaled up and commercialized in grid scale energy 
storage.
    I think the first thing to remember is that energy storage 
is far more than just batteries, right? It can also include 
things like pumped-storage hydro. It can include innovative 
ways of using water pressure to store energy underground. It 
can include heat storage and many other solutions. So I think, 
first and foremost as we fund against that priority for our 
Federal R&D engine, we should be thinking of what we want to 
come out of a storage solution as opposed to the necessary 
technology that would go into the storage solution.
    And I think we can set very aggressive goals against that, 
as some legislation introduced in the past Congress did, and 
then drive most of our dollars and coordinated activity across 
the Department of Energy toward achieving those performance 
milestones.
    Mrs. Rodgers. Thank you. With that, I am going to yield my 
time. And I appreciate your sharing that info.
    Mr. Powell. Thank you.
    Mr. Tonko. The chairwoman yields back.
    The Chair now recognizes Representative Barragan.
    Ms. Barragan. Thank you, Mr. Chairman.
    Last night at the State of the Union, the President may 
have ignored the threat of climate change. But with Dems in 
control of the House, this committee and Congress will no 
longer ignore the threat of climate change.
    I also want to take a moment to thank Reverend Woodberry 
and Mr. Williams for mentioning the impact to communities of 
color and low-income communities that climate change is having. 
When I think of climate change, I don't think in terms of 
green. I think in terms of black and brown. When I think of 
climate change, I think of my black and brown constituents who 
make up 88 percent of my district and who are 
disproportionately impacted by negative impacts of climate 
change.
    I think of black and brown communities throughout the 
Nation forced to live under discriminatory environmental 
policies that cripple their cities and towns economically, and 
leave them vulnerable and dependant on the very companies that 
are polluting our neighborhoods.
    When I think of climate change, I think of black and brown 
people who are confined to communities where decades of lax 
environmental policies and enforcement have literally sickened 
entire generations. I think of black and brown people across 
the country, this Nation, who face the painful reality of 
shortened lifespans filled with health complications caused by 
the toxic environment in which we live.
    I think of black and brown children forced to live in 
neighborhoods where the air quality standards are astonishingly 
low and the use of asthma inhalers is alarmingly high. I think 
of black and brown communities and children whose asthma 
diagnosis amounts to nothing more than a death sentence, with 
brown children in these communities having 40 percent or more 
likely to die from the affliction than their white 
counterparts.
    So, ultimately, when I think of climate change, I do not 
see an environmental crisis, I see a systematic environmental 
racism that needs to be acknowledged and addressed.
    Reverend Woodberry, do you acknowledge that environmental 
racism is a real threat to black and brown communities?
    Reverend Woodberry. Yes. Thank you for your question.
    Absolutely. And we want to urge Congress that, as we move 
forward with legislation, we ensure that we are not replicating 
models of injustice. Let me give you an example.
    Last year in August, we cut a ribbon on a solar farm, small 
solar farm in Dillon County on Highway 9 in the middle of a 
soybean field. But we were very careful while working with Duke 
Progress Energy, the utility, over a 2-year period to make sure 
that this solar farm was built in a just and equitable manner. 
And so, out of the 1,200 households that will be supplied with 
energy from this community solar farm, we made sure that one-
third of the residents who were 200 percent of the Federal 
poverty limit had the $250 emission connection fee waived.
    And in addition to that, we have to be careful that, as we 
move toward renewable energy or we do energy grid upgrades, 
that we are not once again replicating models of injustice. So 
we were able to get the utility to do 1,500 free energy 
efficiency upgrades. Because whether an environmental justice 
home is connected to fossil fuels or renewable energy, if that 
home is energy inefficient and they are heating and cooling the 
outdoors and paying a disproportionate amount of their income 
on energy costs, we have not solved the problem.
    And what we want to avoid is creating an energy divide the 
way that we have done in the past by creating an educational 
and digital divide.
    Ms. Barragan. Thank you, Reverend Woodberry.
    If I could with the last 20 seconds, Mr. Williams, what are 
your recommendations to the committee to address environmental 
inequalities in black and brown and low-income communities, 
including opportunities to create these clean jobs?
    Mr. Williams. Sure. Well, first, thank you so much for your 
statement and your question. If we put forward a wholehearted 
effort to solve climate change but in the process do not remove 
toxic chemicals and other forms of pollution from workers' 
communities, then we haven't succeeded. So we agree.
    So there needs to be a significant, comprehensive effort 
that incorporates that into efforts to reduce greenhouse gas 
emissions as well.
    In terms of job creation in those communities, absolutely, 
targeted investments in disadvantaged communities, previously 
overlooked communities, absolutely needed. Policy items like 
community benefits agreements, local hire provisions, all are 
absolutely critical as we invest in trying to find new 
solutions.
    Ms. Barragan. Thank you. I yield back.
    Mr. Tonko. The gentlewoman yields back.
    The Chair now recognizes Representative McKinley.
    Mr. McKinley. Thank you, Mr. Chairman.
    Mr. Powell, I would like to have a conversation with you or 
some interaction with my remarks here. I think we have heard on 
the panel so far most Republicans and Democrats agree that 
there is a--the climate is changing, and that industrial 
activity is a major contributor to that. But I think the 
reinforcement is that we strongly disagree with solutions on 
how that might be.
    Would you agree that America acting alone is going to make 
a difference to the global environment?
    Mr. Powell. It will not.
    Mr. McKinley. Thank you. Let me add to that.
    So I want to add that, if anyone thinks that decarbonizing 
America is going to save the planet, whether that is 10 years 
or 20 years from now, you are delusional. Just 3 years ago, the 
EPA Administrator said that, her quote was, ``American action 
alone will not make the difference needed to impact global 
climate change.''
    The Cato Institute came out and said that decarbonizing the 
United States would lower the global temperature by just one-
tenth of 1 degree Celsius by the year 2050.
    But without this global commitment that everyone seems to 
be ignoring, this is what we are having to deal with. Do we 
really think, any of you on this panel, that if we decarbonize 
America we won't be faced with severe weather, we won't have 
droughts, that coastal communities won't be flooded? How can we 
say that without the rest of the world on board?
    Here is what is going on, as CRS has already published.
    [Slide follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. McKinley. This is what is going on, that China from 
2000 to 2016--China has increased its global emissions--or its 
emissions--by 290 percent. India, 235 percent. And at the same 
time America has reduced it by 16 percent.
    Are you familiar with the MIT report, their technology 
review report that--maybe you are. And what that said was--and 
it was just a recent report--it came out and said that, unless 
India reduces its emissions, the result will be a climate 
catastrophe regardless of anything the United States does.
    I want to make sure we always keep this in context. We 
don't live in a vacuum. We don't live in a little microcosm 
here that the air of the United States is, if we can get it 
clean we will be fine. We involve from the globe on this.
    So we get down to, what are our solutions or what are our 
options? And so if I could from you--you and I have had this 
conversation--it appears that most of the Democrats or people 
on the other side of the aisle are saying that they want to use 
a hammer approach. Let's put more regulations, cap in trade, 
carbon taxes, some kind of hammer approach. Isn't that what you 
are hearing as well primarily, Mr. Powell, that it is a hammer 
approach to solve this problem rather than a carrot and 
incentives for innovation?
    Because I think if we could do the innovation that we 
started last year with 45Q, with 48A, we could go on with that. 
Look, we have already talked about the Allam cycle, the net 
power plant, the turbine efficiency. Aren't those things going 
to be really the best solution rather than the hammer approach?
    Because I am assuming you are aware of the hammer approach 
throughout Europe, France particularly lately with the yellow 
vests, what happened there when they rejected that notion of a 
hammer approach. So, if we could just continue this innovation, 
this effort for research, I think many of you talked about the 
research concept, if we could do that we could, America, use 
our science and technology that we have used to do space, 
medicine, healthcare, all, and implement a strategy. Wouldn't 
it be something that we then could export to the other nations 
so that--like Mr. Worthington was saying, a billion to a 
billion five that don't have energy--if we develop the 
technology to reduce emissions and we could see that, export 
that technology and give them a chance for a better life, 
wouldn't that make more sense than a hammer approach that 
people are rejecting?
    Mr. Powell. So technology is the genie you can't put back 
in the bottle. And the political will for climate solutions 
will come and go here in the United States and around the rest 
of the world, but technology will last.
    Mr. McKinley. OK.
    Mr. Powell. So we can export the technology and we can have 
a higher confidence that that will be taken up around the 
world.
    Mr. McKinley. I just hope that everyone on the panel will 
recognize that what we do here is, we are just part of a big 
system. We have got to get the rest of the world engaged in 
this, otherwise we are still going to have severe weather, we 
are still going to have drought, and we are going to have 
flooding of our coastal communities.
    Thank you very much.
    Mr. Tonko. The gentleman yields back.
    The Chair recognizes Representative McEachin for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman. Mr. Chairman, I want 
to start by thanking you for your leadership in the fight to 
stop climate change. I can't think of a more important 
discussion with which to begin the new Congress. And I also 
would like to thank our panelists, especially Reverend 
Woodberry, who has been a great champion for environmental 
justice, and Mr. Williams, whose organization has helped show 
that organized labor and the environment movement share the 
same goals and can succeed by working together.
    And in that vein, Mr. Williams, I would start with you and 
build a little bit on the question that Mr. Pallone stole from 
me, quite frankly.
    You know, one of my proudest accomplishments as a State 
legislator was to help clear the way for an offshore wind farm, 
which means well-paying jobs for Virginia workers. And I 
believe that we can replicate that success across the country. 
So how do we ensure that the coming green energy revolution 
helps all workers, even those who right now are working in the 
fossil fuel industry? That is the part I want you to build onto 
your answer that you gave Mr. Pallone.
    Mr. Williams. Sure. Offshore wind--well, first, thank you 
for your leadership, Mr. McEachin, it has been extraordinary. 
And we are already seeing benefits in Virginia for offshore 
wind investment and those policies working. Offshore wind is an 
extraordinary opportunity and one where we have seen, 
especially from the labor movement and the environmental 
movement, really the cobenefits percolating up in such a 
beautiful way.
    There is only one project currently built. But there are 
thousands of megawatts on the cusp of being built up and down 
the east coast. That is going to create high-quality union jobs 
in coastal areas up and down the east coast. But then going 
into the country, the supply chain potential of that and 
helping build out and support American manufacturing is just 
critical and incredibly impressive.
    We think that there needs to be significant support to make 
sure that that industry keeps moving forward and that policies 
deployed ensure that these projects are using project labor 
agreements, that they are, if needed and if possible, targeting 
it to communities that certainly need economic investment.
    So I just couldn't agree more, offshore wind is an 
absolutely critical part of this conversation.
    Mr. McEachin. Thank you.
    Reverend Woodberry, we know that environmental injustice 
hurts minority, rural, and low-income communities. But does 
facing unique challenges mean those communities also enjoy 
unique opportunities? For example, if we use the policy process 
to create new green-collar jobs, can we expect those jobs to be 
created in an economically just way? And if not, are there 
steps that we can take to make sure that they are, that they 
are done in an economically just way?
    Reverend Woodberry. Absolutely. Thank you for that 
question.
    What we need to do is work on a macro level but also on a 
micro level so that we are putting in place community-based 
climate solutions and also doing community in-place training. 
So we have seen this done successfully in Buffalo, New York, 
with Push Buffalo where, in the community that was being 
gentrified, they were able to get a building that was abandoned 
and convert that building into housing for senior citizens as 
well as offices for NGOs and a community center.
    We also have seen it done, we had some training back in 
2017 where we did a train-the-trainer for a solar installation 
for nonprofit leaders from Georgia, from your State in 
Virginia, from Mississippi, and South Carolina. And they have 
gone back in their communities to do solar projects and low-
income, people-of-color communities.
    As a matter of fact, Monday I had the privilege of speaking 
at the University of Virginia. And we are going to be launching 
a solar project in the Buckingham community in June.
    And we can actually take these small-scale, community-based 
successful programs and projects and actually export them 
overseas. So I cochair an 88-year-old organization called 
Agricultural Missions, Incorporated. We are just completing an 
8-year project in Sierra Leone and Liberia where we brought 
community water pumps to 47 towns and villages. And we will be 
going to Sierra Leone and Liberia in April so that we can work 
with those same community leaders and organizations in these 
towns that have never had electricity so that we can work on 
implementing a 4-phase solar project in those towns and 
villages.
    So we can export the technology. We can also export 
community-based climate change solutions with renewable energy, 
providing jobs and opportunities for low-income communities and 
people of color in this country and around the world.
    Thank you for your question.
    Mr. McEachin. Thank you, Reverend.
    And, Mr. Chairman, I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes Representative Long for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. And before I begin my 
remarks, I would like to ask for everybody to keep John and 
Debbie Dingell in their thoughts and prayers. Debbie had 
tweeted out this morning that ``Friends and colleagues that 
know me and know I would be in Washington right now unless 
something was up. I am home with John and have entered into a 
new phase. He is my love and we have been a team for nearly 40 
years. I will be taking each day as it comes. We thank people 
for their friendship and support and ask for prayers and 
privacy during this difficult time.''
    I know reading this in an open hearing may not be privacy, 
but she tweeted it so I am assuming that she would be OK with 
that. And John was sworn into Congress the year I was born, 
1955, and Debbie has followed in his footsteps. And very good 
friends of my wife, Barbara, and I. So just want everyone to 
keep John and Debbie in their thoughts and prayers, if you 
will.
    I want to focus my questioning here today on how to reduce 
carbon dioxide emissions while keeping energy and commodity 
prices low, particularly in rural and agricultural communities 
like those that I represent. I have a large rural area.
    Mr. Worthington, coal represents 81 percent of Missouri's 
power generation in 2017. And two of the biggest industries in 
my district are farming and trucking. And from what I have seen 
with the New Green Deal wants to completely replace fossil 
fuels with renewable energy and decarbonize our economy, which 
would be a very worthy goal if it was anywhere near possible 
within the time frame they want to do it.
    Do we currently have any technology to decarbonize the 
farming and trucking industries while continuing to produce and 
move goods to market without harming consumers?
    Mr. Worthington. That technology does not exist today at 
scale to accomplish those goals. We can possibly get there, 
given time and given tremendous investments in research and 
technology. Agriculture presents a significant percentage of 
greenhouse gas emissions. You might think of them as being 
naturally occurring in the agricultural business. I don't think 
we are going to change that component over time. There is no 
technology fix for the emissions out of agriculture.
    We have a long, long way to go to develop the technology 
that would allow for a 100 percent renewable economy.
    One recent report that came out in December, part of a 
scientific journal called Joule, indicated that, if such energy 
storage options existed, $100 a kilowatt hour for lithium ion 
batteries, for example--that is a third of the current cost--
the cost would be $7 trillion. Seven trillion dollars, just the 
storage component of a 100 percent renewable system. Seven 
trillion dollars is 19 times the amount that Americans spend on 
electricity in 1 year. Nineteen times the amount of electricity 
in 1 year.
    And that would be, again, a cost of lithium ion batteries 
that is a third of what the cost is now. So, even with 
additional R&D investments, the cost is still going to be 
staggering----
    Mr. Long. OK.
    Mr. Worthington. [continuing]. For the Green New Deal.
    Mr. Long. Thank you.
    And, Mr. Powell, I will turn to you. And I travel quite 
extensively with my duties here in Congress. Been to China 
several times. And I think one time I have seen the sun while I 
was there. I mean, sun dials are not big sellers because you 
can't tell if the sun is up or not or what part of the sky that 
it is in. So anyone in their right mind wants clean air to 
breathe, clean water to drink, and I hope that hearings like 
this will bring out commonsense solutions that we can all agree 
on as Republicans and Democrats and come together to eventually 
reach these goals.
    And, Mr. Powell, I share your desire to reduce carbon 
emissions, as any right-thinking person would, I would think. 
And in your opinion what is the right way to do that? Should 
Congress encourage market-based solutions to encourage cleaner 
energy? Or should we follow the New Green Deal, which would 
raise taxes and impose the stringent mandates that have 
potential costs we just heard about to communities and 
industries like those that my district deals with?
    Mr. Powell. Well, first, Representative Long, thank you for 
your leadership on advancing nuclear power and solutions to the 
spent fuel issue and your work with Leader Shimkus on that 
issue.
    Market-based solutions, all things being equal, should be 
the more cost-effective solution to the problem both here in 
the United States and also the things that we can export to 
other economies like China. It is very difficult for us to 
export our policy over there. They do their own thing. But they 
are happy to buy, and take, and scale up our technology. In 
fact, the real risk is that the Chinese in many of these things 
are actually moving very quickly and attempting to take also 
parts of the global market in those technologies as well.
    And So I think from the U.S. economic competitiveness 
perspective, there is a real priority that we stay competitive 
with these technologies alongside the Chinese.
    Mr. Long. OK, thank you. I am past my time. I yield back.
    Mr. Tonko. The gentleman yields back. The Chair now 
recognizes Representative Blunt Rochester for 5 minutes.
    Ms. Blunt Rochester. Thank you, Mr. Chairman. First I want 
to thank you for your leadership and also for your charge to 
the committee that we rise to the challenge. I want to thank 
you for that. I would like to thank the witnesses as well.
    I can think of no more pressing topic for us to be 
addressing than climate change. Actually, as we were sitting 
here, over my phone a New York Times article came out to say 
that it is official, 2018 was the fourth warmest year on 
record. It is happening to us right now.
    And in Delaware we are the lowest-lying State in the 
country. We are urban, we are rural, we are suburban, and we 
are also coastal. So the consequences of climate change and sea 
level specifically impact my State directly.
    I also wanted to just say a word about the global 
conversation that we are having as well. I actually did live in 
China, and I actually do think that we need to stay 
competitive. But the real issue is not whether the world 
recognizes it, it is do we recognize it? When we get out of the 
Paris Climate Accord, we send a message to the world.
    My first question is to Dr. Ekwurzel. And if you can just 
talk a little bit about the potential impact of sea-level rise 
for a State like mine if we don't immediately take steps to 
address carbon emission and climate change more broadly?
    Dr. Ekwurzel. Delay in action on reducing global emissions 
is absolutely critical for the State of Delaware. As you know, 
the low-lying communities, we also have situations where there 
are churches that the parking lots--people can't even get to 
church on Sundays.
    Ms. Blunt Rochester. Yes.
    Dr. Ekwurzel. It is really affecting the daily lives. And 
we have been working with communities to share those stories 
and to figure out how can we adapt.
    Adaptation is really key for the State of Delaware for 
doing coastal resilience.
    Ms. Blunt Rochester. Thank you so much.
    And I would like to turn it to Reverend Woodberry. And 
thank you also for your work.
    One of the things, a lot of people think that sea-level 
rise really only impacts those coastal communities and beaches. 
But, as was said, in Delaware we have areas that are considered 
environmental justice communities. And I was hoping, Reverend 
Woodberry, if you could just talk about strategies that you 
have seen that are effective in helping those communities get 
their voice out there and also advocate for themselves, actual 
strategies.
    Reverend Woodberry. Actual strategies. So we have to look 
at being more proactive rather than waiting for climate impacts 
to take place. And thank you for lifting that up. And sea-level 
rise impacts even freshwater. So we are finding waterways, 
estuaries that are becoming more brackish. It is impacting sea 
life. It is impacting fishing. A lot of low-income people 
actually don't fish for sport, but they fish because they need 
the food in order to survive and feed their families.
    Some of the solutions that we discussed recently in New 
Orleans after experiencing the Hurricane Florence and Hurricane 
Michael, was that we need to work desperately to put people to 
work to make our homes more resilient to deal with adaptation. 
So I mentioned briefly in my statement that we can look at 
doing bioswales. In a lot of our communities, we have 
brownfields that are being polluted by industries that are gone 
that we can actually create bioswales and use plants for 
remediation that can draw out heavy metals and toxins, and 
actually provide drainage and pools so that urban areas or 
rural areas do not have to be as flooded as they are now.
    Also, it is very important that we keep our forests and our 
trees standing, particularly along our river areas. Hardwood is 
very valuable. But what we are finding is that a lot of low-
income communities are actually losing their forests and their 
trees. We have a lot of folks, particularly people of color, 
who have their property that is owned by several families, and 
oftentimes they are not able to pay the property taxes, and the 
only option that they have is to have the trees cut down.
    Ms. Blunt Rochester. Thank you, Reverend.
    Reverend Woodberry. So adaptation reserve is really 
important.
    Ms. Blunt Rochester. Thank you so much.
    And, Mr. Williams, my last question is really about, in 
relation to Reverend Woodberry, many of these communities like 
Southbridge where we live in Delaware bear the brunt of these 
economic impacts. Can you talk about jobs that can be created 
to help mitigate and also strengthen the community?
    Mr. Williams. Sure. And thank you for the question.
    Again, this is an infrastructure discussion. This is 
directing investments directly towards those communities. We 
should target them to communities that are going to be hardest 
hit, are already hard hit economically, and we should make sure 
that we are not just tossing money and saying, ``Go forth.''
    But there should be standards there to make sure that there 
are good jobs and they are lifting up people who haven't had 
the opportunities, whether it is building sea walls, or 
retrofitting buildings, or even working in healthcare and such, 
just making sure investments get targeted there.
    Ms. Blunt Rochester. Thank you. I am out of time. I yield 
back.
    Mr. Tonko. The gentlewoman yields back.
    The Chair recognizes Representative Flores.
    Mr. Flores. Thank you, Chairman Tonko. And thank you, 
Chairman Tonko and Leader Shimkus, for hosting this meeting 
today. I was pleased that all the panel and almost everybody up 
here on the dais has agreed that climate change is real. The 
question is, how do we deal with it?
    Reverend Woodberry, I want to thank you for your closing 
comments where you said that we have got to focus on 
mitigation, and adaptation, and resilience. And then you 
further closed by saying that forests are by far the best 
carbon sink that is available today, and that we need to not 
forget about that as a source of carbon capture.
    I would--I want to say this--you know, we have already 
heard this, the U.S. leads the world in emissions reduction. 
And everybody keeps talking about Paris. And the EU countries 
that are part of the Paris Accord have failed to meet their 
carbon reductions.
    We, on the other hand, have been leaders in this. And it's 
in large part to technology that has created that American 
success story, partially because of the transition to cleaner-
burning natural gas and the development of cost-effective 
renewables.
    For my own part, I am doing my part. Right before I ran for 
Congress, I didn't know I was going to run for Congress, but I 
commissioned the largest residential solar system on my house 
in Central Texas. And so I am glad to be part of that. And over 
the course of the last 3 years, I have converted over 90 
percent of my light fixtures to computer-controlled LED 
technology. So I have one of the lowest emissions footprints 
per square foot of anybody up here on this dais.
    That said, you have got to be careful how you do this. I 
don't think we get it through a chaotic, headlong rush toward 
decarbonization. I think we get it through thoughtful use of 
technology and figuring out what is the pathway for this 
moonshot, and what is the realistic time period that it gets 
there.
    One of the things that--one of the technologies I think 
that gets us there is nuclear. We hear a lot of projections 
about replacing the existing fossil energy power generation 
with solar and wind. But there are mixed messages about the 
role of nuclear energy in the future. And it seems to me that, 
if we are really serious about climate change, we need to get 
serious about the role of nuclear power.
    I don't understand why some advocates for that chaotic 
decarbonization do not take nuclear seriously. They are 
ignoring the role of next-generation nuclear power as a 
significant source of baseload zero-emissions power with a much 
smaller land and environmental footprint than nonbaseload power 
sources like wind and solar.
    Mr. Powell, your organization, ClearPath, is doing a 
significant amount of work in the nuclear area. What is your 
organization focused on in this form of clean energy over 
others?
    Mr. Powell. Well, first, Representative Flores, thank you 
for your leadership on advanced nuclear energy, both in 
promoting solutions for advanced nuclear fuel----
    Mr. Flores. We are going to bring it up again, too.
    Mr. Powell. Appreciate that. And also for cosponsoring the 
nuclear moonshot approach that Representative Higgins has 
brought to the House Science Committee.
    We think that a number of priorities are necessary to scale 
up the next generation of nuclear power. Obviously, we need the 
fuel for those reactors.
    Mr. Flores. Right.
    Mr. Powell. We already have a test bed that has now been 
established in the last Congress. Now we need a moonshot goal 
to demonstrate multiple advanced reactors and deploy most of 
our resources through the Department of Energy towards 
achieving that goal.
    We also need to use the full resources of the Federal 
Government, like its PPA authority to scale it up.
    And then, lastly, to this global problem we need to be 
thinking about how we use nuclear as a tool of diplomacy and 
economic development around the world and how we use new 
authorities like the BUILD Act and the Development Finance 
Corporation to start exporting that good U.S. nuclear 
technology to other countries and help them solve their 
emission problems with 24/7/365 clean energy.
    Mr. Flores. The United States is developing advanced next-
generation nuclear technologies. But it has also been 
demonstrated that we have a great record for our current light 
water reactor fleet. The United States nuclear reactors have 
operated for over 4,000 reactor years without a major accident, 
according to the Nuclear Regulatory Commission.
    If this knowledge and successful safety record can be 
shared with the rest of the world, we could make great strides 
in reducing emissions through safe nuclear power, particularly 
next-generation nuclear power, to generate clean, zero-
emissions electric power.
    So, Mr. Worthington--and then I will ask you the same 
thing, Mr. Powell--should the U.S. promote more nuclear as part 
of a global emissions reduction scheme?
    Mr. Worthington. Absolutely.
    Mr. Flores. OK. Mr. Powell? Pretty simple answer.
    Mr. Powell. Yes, absolutely.
    Mr. Flores. OK. For both of you, has anyone looked at the 
environmental impacts of scaling up to 100 percent renewables? 
My home State of Texas is the Nation's leader in wind 
production. But then we have got a lot of land, open land in 
West Texas that makes it feasible to do that where it is not a 
problem.
    Wind, however, is intermittent and does not provide always 
long baseload power. And so, when we saw that with the impact 
of the power demands coming out of the recent polar vortex, 
what are the environmental and land use impacts of wind and 
solar versus nuclear and natural gas? Mr. Powell?
    Mr. Powell. Well, certainly nuclear is a more compact 
solution.
    Mr. Flores. Right.
    Mr. Powell. It produces more power on a smaller amount of 
land. And in terms of the broader environmental impacts, there 
are tradeoffs with all of these technologies.
    So renewable technologies and the storage that would have 
to go along with them have a lithium problem and sort of a 
lithium sourcing problem for where they come from. Just as 
nuclear has a spent fuel problem.
    Mr. Flores. Right.
    Mr. Powell. All of these technologies have their own local 
environmental impacts, and all of those need to be managed as 
part of a holistic solution.
    Mr. Flores. Mr. Worthington?
    Mr. Worthington. What we are worried about is, with the 
rapid deployment of solar photovoltaics, these systems have a 
shelf life. And after they no longer function, they are going 
to have to be recycled. And there are some pretty nasty 
chemicals that are contained when they are manufactured.
    And so we are concerned that we don't really have the rules 
in place necessarily to safeguard that those units are recycled 
properly and the chemicals are properly disposed of. I think 
that is something that has not been adequately studied and----
    Mr. Flores. Right.
    Mr. Worthington [continuing]. Warrants some more review.
    Mr. Flores. Thank you. I do agree that, as we have future 
hearings on this subject, we need to consider the gnarly 
environmental footprint that some storage technologies have.
    Mr. Chairman, thank you for your forbearance. I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair recognizes Representative DeGette.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    You know, I really want to thank you for having this 
hearing as your first hearing of this committee. I have been on 
this committee for many, many years and seen the, shall I say, 
evolution of thinking about climate change. And this panel is 
the perfect example of that.
    And so I want to start out in the grand tradition of our 
beloved friend and mentor, John Dingell, and ask you all a 
couple of questions that will only require a yes-or-no answer.
    The first question is, do you all agree that climate change 
is real and that human activity contributes to it? Doctor?
    Dr. Ekwurzel. Yes.
    Mr. Powell. Yes.
    Mr. Duke. Yes.
    Reverend Woodberry. Yes.
    Mr. Worthington. Yes.
    Mr. Williams. Yes.
    Ms. DeGette. Thank you. That in itself is a revolutionary 
step for this committee. Thank you all for that.
    My second question is, do you all agree that we need to 
address climate change in a way that builds the resilience of 
our communities, especially of those most vulnerable to climate 
impacts, while growing our economy and providing well-paying 
jobs? Doctor?
    Dr. Ekwurzel. Resounding yes.
    Mr. Powell. Yes.
    Mr. Duke. Yes.
    Reverend Woodberry. Absolutely yes.
    Mr. Worthington. Yes.
    Mr. Williams. Unequivocally.
    Ms. DeGette. Thank you. My last yes-or-no question--so far 
you are all getting 100 percent. My last question is, do you 
agree that driving innovation in clean energy is an essential 
part of the solution, and that it is time that we committed 
ourselves to doing that?
    Dr. Ekwurzel. Yes.
    Mr. Powell. Yes.
    Mr. Duke. Yes.
    Reverend Woodberry. Yes.
    Mr. Worthington. Yes.
    Mr. Williams. Yes.
    Ms. DeGette. Thank you very much.
    You know, all of this agreement here in this panel with the 
Democratic and Republican witnesses makes me really hopeful 
that, as what Mr. Powell said, bipartisan cooperation on 
climate change can be attainable. And I want to thank all of 
you for committing to this.
    I just have a couple of more questions.
    One of my questions for you, Dr. Ekwurzel, is, as you know, 
I am from Colorado and the last few years we have had the 30-
year low in snow pack. And what is even worse than that is that 
the snow is melting earlier, and so the water is going down. 
Can you let us know what kind of impact climate change is going 
to continue to have on the snow pack in the western United 
States?
    Dr. Ekwurzel. Thank you. And that snow pack is a critical 
water resource for Coloradans and all downstream----
    Ms. DeGette. Right.
    Ms. Ekwurzel [continuing]. In the Southwest.
    I want to say that there are three things that climate 
change does to the snow pack. It causes it to melt earlier. We 
have a shorter snow season. Even if you have an atmospheric 
river delivering wonderful amount of snow, the extra heat in 
the winter season is causing it to melt, and sublimate, and 
evaporate into the atmosphere.
    We have what is called a hot drought in the Colorado River. 
We could lose up to 50 percent of that flow just from the 
climate change impacts if we were to do unabated, you know, 
course that we are on now.
    Ms. DeGette. Second, so thank you, a second issue that we 
have, in particular in my congressional district, which is 
primarily Denver, is a persistent smog problem. And of course 
we all know what the issues with smog are in terms of asthma 
and the work and school days, outdoor recreation days, et 
cetera. But what can you tell us--and you talked, we talked a 
lot and we know in the West about the impact of wildfires--what 
can you tell me about the impact of climate change on air 
pollution and smog?
    Dr. Ekwurzel. We call it the climate penalty of smog. One 
of the ingredients you need for greater ozone ground-level 
production is warmer temperatures. The warmer it is, the more 
smog you produce if you have those precursors of volatile 
organic carbon. And you need sunlight.
    Therefore, if we were to reduce global emissions, we would 
reduce the future climate penalty that could only get worse 
with climate change.
    Ms. DeGette. Thank you.
    Mr. Chairman, I just want to respond to a couple of the 
things our colleagues on the other side of the aisle have been 
saying. The first thing they have been saying is that, well, 
the rest of the world is not coming along.
    Well, number one, we are the ones that pulled out of the 
Paris Climate Accord, not them. And so I would suggest maybe 
one of the first things we could do is get back into the Paris 
Climate Accord.
    And the second thing I will say is, just because other 
people aren't moving as quickly as we are, the President said 
last night in the State of the Union, America is the best 
country in the world. Why don't we be the trendsetter? Why 
don't we be the one exporting all of our technology to China 
and India? Why don't we be the one setting the standard?
    And the last thing I will say is, these other countries do 
want to act. Their citizens are demanding action for the same 
reason why we are demanding action. And I think that that is 
why this committee--this is just the first step, and I know you 
intend to work on legislation, and all of us intend to work on 
that with you because we are actually going to move this 
through. And I know we can do it in a bipartisan way.
    I yield back. Thank you, Mr. Chairman.
    Mr. Tonko. The gentlewoman yields back. And we thank you 
for your comments.
    The Chair now recognizes Representative Carter.
    Mr. Carter. Well, thank you, Mr. Chairman. And thank all of 
you for being here. This is an extremely important subject. I 
believe that my colleague just asked all of you a question on 
whether you believe that climate change is real or not. And I 
think, if you were to ask that same question to everyone up on 
this dais, they would say the same thing: Yes, it is, it is 
real. It is something that we have to address.
    There may be some difference of opinions on how much of it 
is man-made. But regardless of how much of it is man-made, we 
still have to address it. There may be some who want to say 
that it is just cyclical in nature and that if you look back 
over time and this happens, well, that may be true too. But 
regardless of that, we still have to see the impact and have to 
address the impact that man is having on this.
    These are all givens. These are all things that I think all 
of us agree on and all of us are working toward.
    I want to start--and for that I want to thank all of you 
for being here and thank all of you for your interest and for 
your work on this, because it is extremely important. We all 
recognize that.
    I want to start, if I could, with Mr. Worthington and just 
ask you, I have always been one who subscribes to an all-of-
the-above-type energy policy. I think it is extremely important 
for a number of reasons for us to have safe, and secure, and 
dependable, and affordable energy. And it is important for our 
national defense. It is important for our citizens. It is just 
very important.
    I know that you mentioned in your testimony that you 
believe that an all-of-the-above approach is essential as well. 
Once we get beyond solar, wind, hydro, geothermal, and even 
beyond the traditional fuels, what are some areas that we 
should be looking for to play a greater role in the all-of-the-
above fuels mix?
    Mr. Worthington. Well, one of the, one of the promising 
technologies is hydrogen. And we have been dealing with 
hydrogen for decades now. We are not at a stage where it is 
economical, but it has tremendous potential, both to serve 
transportation issues as well as electricity. It needs more 
work. It needs more research. But it is a very promising area 
that we are watching very carefully.
    Mr. Carter. What about biomass? Let me ask you about that. 
I represent South Georgia. We have got a number of things in 
abundance in South Georgia, one of which is pine trees. And we 
have got a number of biomass manufacturers. And what about 
biomass, is that something we should be looking at?
    Mr. Worthington. Absolutely. We are actually using biomass 
now in many different applications. We are using it directly to 
produce electricity. We are mixing it with coal to reduce the 
CO<INF>2</INF> emissions from a coal plant. And we are actually 
pelletizing wood and shipping it to Europe. There are many, 
many countries in Europe heat their homes with American wood.
    Mr. Carter. Why is that it is used in Europe but not 
necessarily as much here in America? I always found that 
interesting. I have visited a number of these plants in South 
Georgia, and that is what they tell me: We ship it to Europe.
    Mr. Worthington. Yes, it is a very good question. I am not 
sure I know the answer. It may be a matter of convenience. Our 
industry has made heating with fuel oil and natural gas very 
convenient. We have liquefied petroleum gas.
    I think it is--I have never answered that question before, 
but I would have to say it is probably because we have more 
options than what the Europeans do. And particularly now with 
our abundant shale gas resources, we are just literally awash 
in gas.
    Mr. Carter. Right.
    Mr. Worthington. And it is inexpensive, it is affordable, 
and it is going to be available.
    Mr. Carter. OK. Mr. Powell, I am going to you and ask you, 
and to kind of follow up on my colleague from Texas, nuclear 
power is certainly something I feel like we need to be looking 
at. Georgia Power right now has the only two nuclear reactors 
under construction in our country. That is something that we 
are depending on and something I think we should look at very 
carefully.
    Can you tell me the role that you see nuclear power as 
playing in our country's energy future?
    Mr. Powell. Absolutely. And, first, let me thank you for 
your leadership in nuclear power, for the State of Georgia's 
commitment in getting those reactors built. That is incredibly 
important for keeping the national nuclear supply chain robust 
and strong going forward.
    I think the next generation of nuclear power in the United 
States will be much smaller, less capital intensive, and more 
flexible. So I think the future of nuclear power----
    Mr. Carter. We are certainly glad to hear that in Georgia.
    Mr. Powell. Yes, exactly. I think it is unlikely we will 
build more gigawatt-scale reactors like the great technology 
going up in Plant Vogtle. I think it is much more likely we 
will build small modular and microreactors that can be combined 
together in the same way that wind turbines are combined 
together in large arrays with hundreds of units. I think that 
is the future of nuclear power.
    Mr. Carter. Right. Again, let me thank each of you for 
being here. I appreciate it. This is extremely important, 
something that we all agree on that we have to address in a 
reasonable and a rational way that is going to provide for 
safe, secure, dependable, affordable energy for our citizens.
    And I yield back, Mr. Chairman.
    Mr. Tonko. The gentleman yields back.
    The Chair recognizes Representative Schakowsky for 5 
minutes.
    Ms. Schakowsky. Thank you so much, Mr. Chairman, after 6 
long years, having a hearing directly on global warming, on 
climate change. And I wish it were that all of us agreed. Maybe 
this tweet from the President, who never mentioned this crisis 
last night in the State of the Union, is a joke. I would like 
to think so, but maybe not.
    During the polar vortex he tweeted, ``What the hell is 
going on with global warming? Please come back fast, we need 
you!'' Not so funny to me. I was in Chicago at the time anyway.
    But I want to talk about transportation and its 
contribution to climate change. The transportation sector is 
the largest source of carbon pollution in the United States, 
and only getting worse. And I am very interested in improving 
our fuel economy standards and decreasing carbon emissions.
    The past four decades the corporate average fuel economy, 
what we call the CAFE standards, have been an extremely 
valuable tool in reducing greenhouse emissions. Unfortunately, 
this administration is attempting to weaken vehicle fuel.
    So let me ask you, Dr. Ekwur--you know who you are. I will 
leave it at that. If you could talk to me about the importance 
of the CAFE standards and making them perhaps even stronger 
than they are.
    Dr. Ekwurzel. Absolutely. We do need to double down on 
lowering the carbon, decarbonizing our transportation sector, 
increasing incentives for electrification of the transport 
sector in cars, and buses, and trucks.
    And what we see is that it is also going to lower the 
ground-level smog as well. It lowers emissions to the 
atmosphere that causes climate change. And also, we improve the 
health of incentives, reduce the inequities with asthma 
sufferers and so forth.
    Ms. Schakowsky. I am wondering if you can explain this to 
me. What we have seen over the recent years, some decrease in 
carbon emissions and global emissions, but we saw last year 
just in the 1 year that internationally 2.7 percent increase 
over the previous rates. One scientist called it a speeding 
freight train. And then in the United States last year, 1 year, 
marked the largest increase in 8 years, 3.4 percent increase.
    So what is going wrong here?
    Dr. Ekwurzel. Absolutely. The U.S. was decoupling our 
growth from a high-carbon economy. We have a lower-carbon 
economy. However, that turned around and now the U.S. is 
emitting more than it did in the prior few years.
    So we cannot take our foot off the pedal, so to speak, on 
incentives that reduce and have cleaner options for when we 
move around, or power, or turn on the lights.
    Ms. Schakowsky. Thank you.
    Mr. Duke, what impact will rolling back efficiency 
standards have on greenhouse emissions?
    Mr. Duke. Thank you for your attention to the extraordinary 
benefits that come from fuel economy standards on light-duty 
and heavy-duty vehicles. And if we just look at the sweep of 
history on this program, I think it is important to recognize 
that it was actually Republican President Ford who put in place 
the first commitment to double our fuel economy back during the 
initial oil crisis.
    And that worked. We got immense consumer benefits and 
national security benefits out of those efforts. Unfortunately, 
we then hit the skids on the program when we failed to update 
the standards for a 25-year period until 2010. And that cost us 
by some estimates a trillion dollars in additional expenditure 
at the pump.
    So the good news is that we have a set of standards now in 
place for heavy-duty vehicles that are proceeding and that are 
going to be helping us transition to advanced technologies for 
super trucks and the like that will save quite a bit of fuel 
for industry and our economy.
    The bad news is, as you suggested, there is a rollback 
under consideration which, frankly, goes much further than the 
automakers themselves requested in engaging with the 
administration on this. And that is because they know that they 
need to compete with China. China already has 60 percent market 
share on electric vehicles. Our automakers need to be 
competitive, and they can be competitive. Tesla retains the 
number-one spot. GM is in the top 10. But we need standards 
that are clear and steadily improving to drive progress and 
make sure we stay in the game on technology. And fuel economy 
is part of that.
    Ms. Schakowsky. Thank you. I want to thank all the 
panelists. This has been really enlightening.
    Yield back.
    Mr. Tonko. The gentlewoman yields back.
    The Chair recognizes Representative Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    If the Green New Deal policies are adopted, the price of 
utilities will inevitably go up. How would the increased cost 
of utilities as a result of this proposed Green New Deal--
carbon tax, cap and trade, high costs associated with renewable 
energy generation--improve the lives of, say, those in Marion 
County, South Carolina, that Reverend Woodberry spoke of? 
People who Reverend Woodberry said were living on fixed incomes 
of $600 to $800 a month.
    The average median income in Marion County is $30,562. And 
the average median income in my district is $47,000 a year. But 
the carbon taxes levied on South Carolinians' electricity, gas, 
et cetera, will increase. These increased costs will impact 
every person and business in the State and, unfortunately, 
would disproportionately impact those in the lower-income 
communities.
    And at the end of the day, people care about things that 
are tangible to them: how much it takes to fill up their gas 
tank, how much their electric bill will be, and if they have 
any money left over at the end of the month to put food on the 
table. That is what my constituents care about.
    We here in America, we take for granted what is known as 
365/24/7 baseload power supply always on. That always-on power 
is generated primarily in three ways: hydroelectricity, nuclear 
power, and fossil-fuel-generated power. Everything else is 
intermittent. The sun doesn't always shine, the wind doesn't 
always blow. And we don't have the technology available yet to 
hold large quantities of power in some sort of battery to 
provide power when it is needed. We take for granted that 365/
24/7 baseload always on power.
    But there are people all over the globe that don't take 
advantage of that. And those are in some European countries, by 
the way. But think about how the United States can be a leader 
in improving the quality of lives of so many people around the 
globe with the export of our fossil fuels so that these folks 
can have always-on power.
    Think about the infant mortality rate across the globe 
where people don't have a steady 24/7 baseload power supply. 
They can't keep the incubators on to keep the babies alive.
    If we want to improve the quality of life--Mr. Worthington 
mentioned 1.3 billion people in the world don't have power--
think about the quality-of-lives issues that he was bringing up 
earlier. Air quality. Air quality kills, what, 400,000 people 
around the globe annually because of bad air quality. They are 
cooking on charcoal, and dung, and wood products. They can't 
keep food fresh because they don't have electricity to have a 
refrigerator to keep the food fresh, so the foods spoil, and 
they are having to eat it and constantly replenish it.
    They can't keep windows in the window spaces because they 
don't have electricity to provide air conditioning, so at night 
they are trying to keep cool, mosquitoes fly in. When 
mosquitoes fly in, they bring diseases that kill so many people 
around the globe every year.
    Food safety, preparation of food, cooking of that food, air 
conditioning, lights to read to their children and have their 
children read to them, these are quality-of-life issues that we 
take for granted here in America that fossil-fuel-generated 
power can provide for people around the globe. But yet we want 
to vilify and demonize fossil fuels that make our lives so much 
better.
    Doctor, you are from Massachusetts; right?
    Dr. Ekwurzel. I live right here in DC.
    Mr. Duncan. OK. Well, Cambridge, Massachusetts, is where 
the organization is located?
    Dr. Ekwurzel. Yes.
    Mr. Duncan. Unless you all rode a bike here today, you came 
in some fossil-fuel-generated power, whether it was an electric 
car, probably the electricity that went into that car was 
provided by some sort of power generation. Could be nuclear, 
could be hydro, but generally it is probably fossil-fuel-
generated.
    Many people in this room who came to this hearing today may 
have gotten on an airplane. And I know just about every Member 
in this committee got on an airplane to fly here. An airplane 
is running on a fossil fuel. Folks, your cars, your trains, 
your planes, are all generated, are all powered by fossil 
fuels. And we have got a lot of work to do if we are going to 
make those airplanes fly on electricity. We have got a lot of 
work to do if we are going to provide electricity through 
intermittent power supplies to give us that 24/7 baseload 
power.
    But it is not the Government's role to incentivize or 
penalize companies and individuals that aren't investing in 
this, it is up to the marketplace. And I am going to use Elon 
Musk, because I think he is a leader in two areas. He is a 
leader in EVs with Tesla, but he is also a leader in space 
exploration. And guess what? He is not being incentivized that 
I know of for space exploration. He actually said let's pull 
away from NASA and the bureaucracy and let's think outside the 
box and figure out how we can save costs, make renewable 
rockets so that we can travel to the moon and then, ultimately, 
to Mars. He didn't do that with the Government forcing him to 
do it. And he didn't do that with the Government incentivizing 
him to do it. He did it because he had a desire to do that, and 
he brought the best people together in a capitalist, free 
market environment to think and come up with a solution.
    That is the solution if we truly believe in global warming 
and improving the lives of so many people around the globe. We 
do it through the innovation and the innovators, not through 
punitive or incentives from Government.
    Mr. Chairman, with that I yield back.
    Mr. Tonko. The gentleman yields back.
    Reverend Woodberry, you were made mention of. Do you want 
to respond in a minute or less, please?
    Reverend Woodberry. I will say that I do believe that 
innovation, I do believe that America could move quickly. My 
family is actually from Marion County. In the 1960s my 
grandparents, my grandfather was a sharecropper. He used 
kerosene lamps. They had a stone fireplace and a wood-burning 
stove for heat. In 20 years we went from having two roads paved 
to every road paved, everybody moving from outhouses to indoor 
plumbing. No more kerosene, but instead having electricity for 
everyone.
    We can move quickly and we can use technology. We can use 
the Government to help because that is who made this happen.
    Thank you.
    Mr. Tonko. The Chair now recognizes the gentlewoman from 
California, Representative Matsui.
    Ms. Matsui. Thank you very much, Mr. Chairman. I really do 
appreciate the witnesses here today.
    I find this really refreshing at this point, because I 
think everybody believes that climate change is real. There 
seems to be that agreement. And I think that is, in essence, 
great progress. This is agreement of a National Climate 
Assessment, which really said that it is real and the risk is 
now.
    And it really concludes that greenhouse gas emissions from 
human activities are the explanation for global warming over 
the last 60 years. And for the second year in a row, the 
transportation sector was the largest emitter of greenhouse 
gases in the United States. And the International Energy Agency 
has found it is the only sector that has become less energy 
efficient over the last 15 years.
    My colleague Ms. Schakowsky brought this up, and I want to 
have a further conversation on this about fuel economy and 
decreased auto greenhouse emissions. That is what the Obama 
administration did for light-duty vehicles through 2025, and 
how important it is in combatting climate change. These 
standards were written in 2012 with the support of the auto 
industry, the environmental groups and the States.
    Now, these are good for consumers, who save billions of 
dollars at the pump over the life of their vehicles. And they 
are good for the American workers, who benefit from the 
development of innovative technologies that create profits and 
support jobs. The standards are projected to reduce gas 
emissions by 540 million metric tons and reduce oil consumption 
by 1.2 billion barrels, and nearly double the fuel economy of 
light-duty vehicles to an average of about 54 miles per gallon.
    Now, at a time when our country desperately needs to become 
more resilient when it comes to adapting to climate change, I 
am really disappointed that the Trump administration moved to 
reverse much of our progress with their proposal to roll back 
the curtain on fuel economy and greenhouse gas standards. And 
that is why I was pleased to introduce the Clean and Efficient 
Cars Act yesterday which will protect our fuel economy and 
greenhouse gas emission standards through 2025.
    My legislation maintains the Federal Government and auto 
manufacturers' promise to the American people, a promise for 
clean, efficient cars that cost less at the pump, better for 
the environment, the health, and the future of our children and 
grandchildren.
    Mr. Duke, you mentioned in your testimony that, despite our 
clean technology edge, the United States is not moving quickly 
enough to reduce carbon pollution. What effects do you believe 
the Trump administration's proposed rule to freeze the current 
fuel economy and greenhouse gas standard have on climate-
related environmental impacts?
    Mr. Duke. Representative Matsui, thank you for the question 
and thank you for your leadership on this crucial topic. It is 
absolutely correct that the transportation sector has now 
emerged as the most emitting sector of our economy. And it is 
one where there are extraordinary solutions today and on the 
horizon to deal with the challenge.
    What industry needs in order to scale up these solutions is 
clarity and certainly against which they can make their 
investment decisions. And we had that, for example, in that 
President Ford's initial push to double fuel economy the first 
time----
    Ms. Matsui. Right.
    Mr. Duke [continuing]. Provided exactly that clarity. And 
we saw the industry deliver. We saw the Big Three at that time 
deliver.
    Once again we have the potential to double fuel economy 
with the 2010 standards for light-duty vehicles and, with that, 
also move into the electric vehicle competition with China in a 
complete way where I am confident that our automakers can win 
the day.
    What is troubling is that, with the proposed rollbacks--
which, again, really exceed what industry itself was calling 
for, maybe not what certain other industries were calling for 
but what the autos themselves were calling for--with those 
rollbacks, it basically makes it harder for us to compete in 
this global marketplace. Again, China has a 60 percent electric 
vehicle share, so we don't want to cede that ground.
    And I should also note that there is plenty more that can 
be done and should be done to improve internal combustion 
engine vehicles as well. There are opportunities to cut 
emissions from those conventional vehicles much more than we 
already have today, and cost-effectively. And so we need to 
stick with the plan that we had in place and keep that investor 
certainty in place so that we can continue to compete.
    Ms. Matsui. Exactly right. Because we keep moving forward 
and we have the momentum, and we have to pull back. Business 
does not like a lack of consistency. We all know that.
    Mr. Williams, you mentioned in your testimony that millions 
of American jobs depend on continuing American leadership on 
clean vehicle technology that includes over 250,000 Americans 
employed across 500 U.S. factories and engineering facilities 
that build technologies that improve fuel economy and reduce 
pollution. Can you really on a global scale discuss what this 
will do, just this simple kind of pullback that we have?
    Mr. Williams. Sure. One of the immediate impacts of it, the 
agency's own analysis says that it will cause, result in the 
billions less in technology investment that supports 50,000 to 
60,000 jobs in the U.S. that we would immediately potentially 
lose.
    But the other piece of it is that this is devaluing the 
investment that a number of other companies across the supply 
chain have made based upon those 2010 standards. So, whether 
you look at ALCOA making aluminum in Iowa and Tennessee, or 
ArcelorMittal Steel making steel for the auto sector in 
Illinois, those investments they made because of the need and 
the standards set forth to make more efficient vehicles. If we 
step back, countries like China and countries in Europe and 
throughout the world will take over this industry and 
completely leave us in the dust.
    Ms. Matsui. Thank you. I have run out of time. I yield 
back.
    Mr. Tonko. The gentlewoman yields back.
    The Chair recognizes Representative Johnson, 5 minutes.
    Mr. Johnson. Thank you. Thank you, Mr. Chairman.
    You know, last Congress we began a discussion on our 
domestic nuclear industry's ability to compete on the world 
stage, particularly with state-backed enterprises coming from 
countries like China and Russia. I hope to continue that 
discussion in this session of Congress.
    And I also would like to point out a similar issue 
occurring on the coal front. As Mr. Powell's testimony states, 
China is financing about 100 gigawatts of coal projects in at 
least 27 countries. Like with our nuclear energy deployment, I 
worry the U.S. is missing an opportunity here, especially as 
ongoing public/private work is driving down the cost of carbon 
capture and storage technologies, as well as making 
nonsupercritical projects feasible here in the U.S.
    In other words, the United States is capable of solving 
these technological problems, but we have got to make sure that 
we stay engaged on the global front in doing that.
    So, Mr. Worthington, can you discuss why so many countries 
are looking to China for their energy needs?
    Mr. Worthington. Yes, sir. Thank you very much for that 
question.
    The World Bank made a decision a couple years ago that they 
were going to refuse to consider financing for a new coal 
plant. There are countries in the world that coal is their only 
option. Kosovo is a great example. Kosovo has a 50-year-old 
coal plant that badly, badly needs to be replaced. The World 
Bank made a commitment to finance a new project. And as soon as 
they made that commitment, they started figuring out how they 
were going to get out of their commitment.
    The Chinese have stepped in in Asia, Africa, and South 
America, and they have been willing to finance projects that 
the World Bank refuses.
    Mr. Johnson. And I have heard from our State Department and 
from our former U.N. ambassador, Ambassador Haley, China is 
doing this kind of stuff.
    Mr. Worthington. Right.
    Mr. Johnson. I mean, they are doing this kind of stuff all 
over the world, all over their region. And they are using these 
energy projects as a way to get their foot in the door. And 
then they have big influence in those countries.
    So are the technologies supplied by China the most advanced 
fossil technologies in the world?
    Mr. Worthington. Not what they are selling to other 
countries.
    Mr. Johnson. Right. Exactly. Would it benefit these nations 
if the United States participated in these markets, could we 
bring the best to the table?
    Mr. Worthington. There is no question. And the other thing 
that the Chinese do is, they insist that the developing country 
buy Chinese products.
    Mr. Johnson. OK.
    Mr. Worthington. So they are not just financing, they are 
providing all, they insist on providing all of the equipment.
    Mr. Johnson. Right, right. So how can the U.S. do better 
from an international engagement standpoint? What should we be 
doing?
    Mr. Worthington. Well, we have tools ourselves with the 
Export-Import Bank, Overseas Private Investment Corporation, 
Trade Development Agency and so forth. Some of these U.S. 
agencies over the last number of years also adopted an 
antifossil energy----
    Mr. Johnson. Right.
    Mr. Worthington [continuing]. Approach. I believe that is 
being reversed. And I believe that they are open for business 
now for fossil projects.
    But the key becomes the new president of the World Bank. 
President Trump should identify a new president of the World 
Bank shortly. Hopefully he or she will not have the antifossil 
bias that the predecessor did.
    Mr. Johnson. OK. Mr. Powell, have you got any comments on 
that before I move on to another question quickly?
    Mr. Powell. I think we can use the new instruments that we 
created in the BUILD Act, like the Development Finance 
Corporation. And to your point about sort of China using this 
strategically, I think we should remember with a nuclear plant, 
for example, 10 years to build, 80 years to operate, 10 years 
to decommission. That is a centurylong relationship----
    Mr. Johnson. Oh yes.
    Mr. Powell [continuing]. That they are getting with that 
other country. We have that opportunity as well in so may 
countries, and it does seem like we are squandering that 
opportunity.
    Mr. Johnson. Absolutely.
    Mr. Worthington, your testimony states that natural gas 
emissions have declined while production has increased. And 
that is thanks primarily to technological innovations 
throughout the industry. I know eastern and southeastern Ohio 
have benefitted greatly from this increased production, 
especially as proposed new ethane crackers and other new job 
opportunities, ethane storage hubs, et cetera, continue to 
emerge.
    So how can we ensure other countries and the world benefit 
from these technological advances? And what role can U.S. LNG 
play?
    Mr. Worthington. U.S. LNG can play a pivotal role. We have 
got a couple units exporting now. We have four more that are 
coming online either still this year or the early part of next 
year. We have an opportunity to more than double our LNG 
exports and to countries like Poland, China, India, Italy, even 
the U.K. So it is a tremendous opportunity.
    We are a dependable supplier. We don't use LNG, we don't 
use natural gas as a political weapon the way some of our 
competitors do. And we should just do everything we can to 
expedite the next fleet of LNG export facilities.
    Mr. Johnson. Yes. Russia in particular, they get about, Mr. 
Chairman, they get about 50 percent of their revenue from the 
sale of oil and gas, much of that to our allies in the region.
    I yield back. Thank you very much.
    Mr. Tonko. The gentleman yields back.
    I now would recognize Representative McNerney from 
California for 5 minutes.
    Mr. McNerney. I want to thank the chairman and I thank the 
panel for your testimony this morning.
    First I would like to observe how reasonable the 
Republicans sound today on the issue of climate change. There 
must have been a conversion on the road to Damascus recently.
    Dr. Ekwurzel, do you agree that most or all climate models 
consistently underpredict the climate change rate?
    Dr. Ekwurzel. Yes. Because there is a double-edged sword of 
uncertainty with climate change. The best-case scenario is, we 
could do that well. But the worst-case scenario tends to keep 
surprising us. It is a bigger error bar on that.
    Mr. McNerney. And given the lag between CO<INF>2</INF> 
emissions and its impact on the climate, do you believe there 
is a realistic way we can avoid temperature increase of less 
than 2 degrees C by carbon reduction emissions alone?
    Dr. Ekwurzel. We have to have a mix of emissions 
reductions, all sources of carbon storage as well that we can 
think that is safe for communities so we can get to a net-zero 
situation by mid-century.
    Mr. McNerney. So then what our alternatives to reduce 
emissions to avoid climate catastrophe? What are our emission 
alternatives?
    Dr. Ekwurzel. As been said, we have to manage our forests 
so that they don't go up in flames and lose the carbon they are 
sequestering. We have to increase the land sink in agriculture 
practices. We also have to perhaps carbon capture and 
sequestration, there may be a bridge for innovation through 
utilization; however, it has to transition. We have to figure 
out to sequester the carbon and keep it out, away from the 
atmosphere.
    Mr. McNerney. Well, considering climate intervention or 
geoengineering such as injecting sun-reflecting particles into 
the stratosphere, how much understanding do we have of climate 
intervention as to its effectiveness or its possible side 
effects?
    Dr. Ekwurzel. We have a lot to do with the social sciences 
of the governance of such an issue of just injecting stuff into 
the stratosphere that would affect perhaps monsoon rains and 
all sorts of consequences around the world and give us perhaps 
hazy skies, beautiful sunsets but hazy skies and other 
consequences. We need more research in this space before.
    Mr. McNerney. Well, what do we need to do to develop 
sufficient expertise in climate intervention to even decide if 
it is a possible way to manage climate change while we reduce 
our carbon emissions?
    Dr. Ekwurzel. First of all, make sure we invest in NASA and 
NOAA and our infrastructure to make sure that every time a 
volcano emits anything that we are able to track it and figure 
out what the consequences are, because that is the modern, the 
natural analog to what these experiments would say. And there 
are many other ways we can study this problem before we would 
do some other experiments.
    Mr. McNerney. Well, then, do agencies such as NOAA and NASA 
and the DOE have the capabilities to generate a baseline 
understanding of the stratosphere?
    Dr. Ekwurzel. Absolutely. And there are sensors and 
satellites we would love to have deployed and to double down on 
science investment on these persnickety problems, as you say.
    Mr. McNerney. Well, I might be proposing legislation to do 
that.
    And before I finish, I just want to say, Mr. Shimkus, thank 
you for attributing the quote to me that it is just an 
engineering problem. But I have to say that was taken out of 
context. I was referring to nuclear waste being an engineering 
problem, but I also said that nuclear waste will need a 
political solution. Now, that whole context also applies to 
climate change. There are engineering solutions that need to be 
addressed, but we need to have the political will to put those 
solutions into effect. And so instead of just sounding 
reasonable, please work with us to find solutions that are 
sufficient to the threat.
    I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes Representative Ruiz of California 
for 5 minutes.
    Mr. Ruiz. Thank you, Mr. Chairman.
    Dr. Ekwurzel, the National Climate Assessment outlined many 
severe public health effects of climate change due to increases 
in air pollution and expansions in the ranges of disease-
carrying organisms. I ask this question because I am an 
emergency physician with a public health expertise as well.
    In addition, a study recently published in the New England 
Journal of Medicine by Haynes and Christie found that in the 
United States it is estimated that almost 60 percent of the 
excess deaths may be caused by the use of fossil fuel from 
power production and traffic. A previous study in 2009 from the 
same journal, the New England Journal of Medicine, found that a 
decrease in air pollution is associated with an increase in 
life expectancy of more than nine months.
    This is real. This has real effects for individuals back 
home when they ask, how does this affect me? It is not an 
esoteric, ideological, partisan kind of conversation. This is 
real, pragmatic life effects on your relatives and your 
children.
    In Riverside County, where I am from and represent, ranks 
amongst the worst in the Nation for ozone pollution. High-ozone 
days contribute to many hospital admissions, especially for 
children who suffer from asthma, and seniors with COPD. I know 
because I personally have treated many of them in the emergency 
department.
    Let me ask you a question. Isn't it true that climate 
change is making it more difficult to improve air quality?
    Dr. Ekwurzel. Yes. The ozone, ground-level ozone with 
higher temperatures, we call it kind of a climate penalty on 
health.
    The other thing is that Southern California and Arizona 
have a situation with the extra dust, and the conditions in the 
spring lead to something that is called a Valley Fever that 
people can be in hospital emergency rooms. We lose lives to 
things that are climate influenced.
    Mr. Ruiz. And as a public health expert, I am concerned 
about the impact climate change is having on the spread of 
vector-borne diseases. Is it true that climate change is 
expected to influence the spread of vector-borne diseases? And 
what kind of new illnesses will Americans be at risk for and/or 
have succumbed to more?
    Dr. Ekwurzel. What we see is that a lot of the pests and 
some of the disease-carrying situations in the tropics are 
moving into southern parts of the United States.
    Mr. Ruiz. Like what?
    Dr. Ekwurzel. Such as dengue fever and other mosquito-borne 
illnesses.
    Other things like West Nile Virus that used to be in a part 
of the U.S. is now spreading northward and westward.
    Mr. Ruiz. Yes. So dengue fever, describe the symptoms, 
would you?
    Dr. Ekwurzel. Yes. I defer to your medical expertise on 
those symptoms.
    Mr. Ruiz. Well, I mean it is not pleasant, put it this way. 
So because we are running out of time.
    As a physician I have seen firsthand that the public health 
infrastructure serving people in rural areas and in other 
vulnerable communities, underserved communities, is often 
underresourced and overburdened, working over capacity. And the 
residents of these areas, like in my district, are often coping 
with multiple challenges that make their health conditions more 
severe.
    So the National Climate Assessment discusses the special 
problems and increased vulnerabilities of individuals in 
underserved communities. Can you describe these problems?
    Dr. Ekwurzel. Sure. Climate change exacerbates the 
historical inequities. And we have to consider these solutions 
to help. Low-income communities, children, older adults, people 
of color are often at greater risk. And low-income communities 
are often exposed to these risks and due to historical 
decisions.
    And the health impacts, it is really important that we 
ensure the vulnerabilities of front-line communities are 
identified and extra precautionary measures are taken to keep 
people safe.
    Mr. Ruiz. So oftentimes decisions are made by, you know, 
governments or corporations to start a business with some 
potential air pollution without the consent or the meaningful 
consultations with the communities that they are going to 
affect currently and in the long term. These communities, like 
those in my district, have a very bad physician shortage 
crisis. They don't have clinics to go to. They already are 
experiencing high asthma rates because of the living conditions 
in which they exist. And they face a higher morbidity and 
mortality at a younger age than other folks.
    That is why I introduced an Environmental Justice Act which 
will specifically address this issue for vulnerable populations 
with Senator Cory Booker. We have introduced that together.
    So we are all well aware that prevention is far less 
expensive than treatment and is obviously much more beneficial 
to patients. I hope we will listen to the warnings of the 
National Climate Assessment and the IPCC report and start to 
address climate change. It is not only an environmental 
problem, it is clearly a significant public health threat with 
real consequences for real people. I know, because I treated 
them in the emergency department.
    Mr. Tonko. The gentleman yields back?
    Mr. Ruiz. Yes.
    Mr. Tonko. The gentleman yields back.
    And we recognize Representative Soto from Florida for 5 
minutes.
    Mr. Soto. Thank you, Mr. Chairman. First I want to thank 
Dr. Ekwurzel for defining the challenge that we have to avoid 
surpassing 1.5 degrees Celsius. Global carbon dioxide emissions 
would have to drop around 45 percent below 2010 levels by 2030, 
and reach net-zero emissions by around 2050.
    And, you know, I was thinking about those dates. And it may 
seem far off for a lot of us. However, I want to put it in 
perspective. And we have a special guest that I want to 
recognize here, Lincoln, who just came in. A name that both 
Democrats and Republicans can get behind, by the way. So, by 
2030, Lincoln will probably be just a teenager by then. And by 
2050 he will be in his 30s. Relatively young and still starting 
his life.
    This question, this challenge is not about the folks behind 
the dais. It is not about most of the folks in the audience. It 
is about Lincoln and his generation and what we are going to 
do. In 2050 we are going to look back and say, did we do what 
we needed to get done to protect Lincoln and his generation? Or 
did we let it slip past us in an irrevocable fashion?
    So what is the cost? The cost is the long-term survival of 
the human race. That is the cost. And the threat is 
existential.
    And this is the greatest country in the world. We should be 
leading on energy policy, not defining it by the worst 
polluters on the planet.
    So I think this isn't science fiction to get to these 
levels. I think we already know what we have to do, a mix of 
nuclear, solar, wind, hydro, and perhaps biofuels. Imagine 
utilities adopting all this. Electric plug-in cars, and trucks, 
and ships, and planes, and trains running on it. That we 
resolve the energy storage crisis with a massive energy 
efficiency effort.
    So I want to ask each of you all in a yes-or-no question: 
If we gave you the resources with that mix, could we get to the 
45 percent drop?
    First, Dr. Ekwurzel, could we get there?
    Dr. Ekwurzel. If we start now, it is a challenge but we 
have a chance.
    Mr. Soto. I also want to ask Mr. Williams, could we get 
there if we had the resources with that mix?
    Mr. Williams. We need to start now.
    Mr. Soto. Reverend Woodberry, do you think it would be 
possible?
    Reverend Woodberry. Possibly, but we must start now.
    Mr. Soto. With the Lord's help, right?
    Reverend Woodberry. Absolutely.
    Mr. Soto. And Congress' help.
    And, Mr. Duke, do you think we could do that with that mix?
    Mr. Duke. We could get it done, and could get it done 
cheaper and faster with a broader mix.
    Mr. Soto. Mr. Powell, would it be possible with that mix?
    Mr. Powell. I would second the broader mix getting it done 
cheaper and faster.
    Mr. Soto. And then, Mr. Worthington, with the mix I 
referred to, could we get it done?
    Mr. Worthington. I think you would have to add carbon 
capture and storage to the technologies that you suggested.
    Mr. Soto. OK. Well, thanks for your opinions on that.
    It is my belief the only resource we really need is the 
will of this committee to meet the challenge of climate change 
now for Lincoln and his generation. And I believe we have been 
elected to do just that.
    With that, thank you, Lincoln, for being here today. Look 
at that. See, he has got his political career starting today. 
And I yield back, Chairman.
    Mr. Tonko. The gentleman yields back.
    Lincoln and I have met in the past. And, Lincoln, it is 
great to have you here again. And thank you for being super 
inspiration.
    Now to the very patient Representative Castor from Florida. 
We offer you 5 minutes to question the panel.
    Ms. Castor. Thank you, Chairman Tonko and Ranking Member 
Shimkus. I look forward to tackling these issues with you. 
Thank you to all of our witnesses.
    We are facing the crisis of our generation. The climate 
crisis threatens all of our districts, all of our communities, 
as well as America's national security, our economic 
prosperity, the health of our families, and the world that our 
children will inhabit. I appreciated my colleague from Florida 
Mr. Soto's remarks. We feel like we are in the bullseye in 
Florida.
    And my district in the Tampa Bay area is one of the most 
vulnerable in the country to the impacts of climate change. 
Hotter and longer summers, deadly storm surge risk because of 
rising sea levels, more intense hurricanes. It is all impacting 
the water we drink and even down to the stormwater and 
wastewater systems that we all rely on every day.
    But we are not alone. This is impacting everyone across 
America. And the costs are very high. Chairman Tonko and I have 
often talked about the costs of inaction. And right now people 
are bearing the brunt of higher property insurance costs, flood 
insurance costs, electric bills. The list goes on and on.
    But the good news is there are solutions. We have seen 
major advances in energy efficiency, renewable energy, 
innovation, and other strategies to reduce greenhouse gases. 
The Fourth Climate Assessment Report said that future risks 
from climate change depend primarily on decisions made today. 
And it has been heartening to hear some of our Republican 
colleagues talk about a new understanding of what is at stake.
    But, you see, the time is short. The time is short now to 
avoid the worst impacts and the escalating costs of the climate 
crisis.
    And to my colleague Mr. Duncan, who kind of symbolizes a 
lot of the discussion we hear on the other side: No, it is 
absolutely vital that the Congress and this country provide 
some bold national policies to get there and to tackle the 
challenges ahead. We have got to tackle the challenges of 
reducing greenhouse gases, especially in the electric 
generation sector and transportation sector.
    So, to close out, I would like Mr. Duke and Dr. Ekwurzel to 
talk to us a little bit about that. In the past decade, the 
average costs of wind and solar electric systems have dropped 
dramatically and the markets are rapidly growing. With your 
best can-do spirit, talk to us about the opportunities ahead 
for this country and communities when it comes to clean energy 
and the jobs we will create with it.
    Dr. Ekwurzel. I will be real short on the resiliency 
aspect, then I will turn it over to Mr. Duke. Because this is 
really important. When those are senior citizens that are 
trapped inside the facility after a hurricane because there is 
no power because it was disrupted, and the fuel supply lines 
are disrupted, when the storm passes, the sun comes up and the 
air still is blowing wind, and you can have a renewable, you 
know, community solar community wind that can get you back up 
on your feet, and you can be more independent as you deal with 
the climate impacts.
    Mr. Duke. Thank you, Representative, for the question.
    And I just want to underscore how much progress we have 
made and how much opportunity we have now to cut emissions 
faster than ever before. The CEO Jim Robo of the largest 
utility in America predicts that, within a few years, 
renewables, wind and solar, with storage will be 2 to 4 cents a 
kilowatt hour and able to broadly compete with conventional 
power. That is an indication of what we have got in front of us 
as we seek to electrify all of our end uses, and building, and 
vehicles, and beyond.
    And I also want to note that there is lots of innovation 
happening in other sectors. The industrial sector is more 
complicated. It is one that is hard to get your hands around 
sometimes, but I want to give an indication of what is going on 
there.
    There is a company in Boston that is creating metals out of 
electricity in a way that can be cost-competitive even for 
steel down the line. You have got companies that are using 
CO<INF>2</INF> to strengthen cement in buildings in Atlanta and 
all across the country. And much more coming in terms of 
CO<INF>2</INF> utilization as part of the overall toolkit.
    And, of course, we have long known how to cut energy waste. 
And increasingly what companies are doing is getting into the 
system so that they can help with demand response, with 
flexible loads. For example, there is no reason why you have to 
charge your electric vehicle right now whenever you first plug 
it in. It is easy to have that respond to the kinds of rate 
variations that California is now sending to consumers so that 
you can charge your electric vehicle when the electricity is 
most plentiful and cheap.
    And this is just a small snapshot of the innovation that is 
happening right now. Much more to come from small modular 
reactors to carbon capture and storage, precision agriculture. 
We can and are in many ways still leading on this, but we need 
the same kind of 90-plus major policies that China has to make 
sure that our industries can continue to scale with confidence 
on all these solutions.
    Mr. Tonko. The gentlewoman yields back?
    Ms. Castor. Yes.
    Mr. Tonko. You do.
    The Chair recognizes the gentleman from Maryland, 
Representative Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. I 
appreciate you all being here today. I am sorry I couldn't be 
here for a good portion of the hearing, but I did get notes. 
And I know it has been a very rigorous examination of what we 
need to do in terms of addressing climate change. And I want to 
thank the chairman for bringing this hearing and bringing 
attention to these issues.
    Having gotten all the questions that you have received and 
responded to them over the course of the hearing, I invite you 
to kind of give a wrap-up perspective on what you think will be 
the most--pick one, two things--the most effective things that 
we can do in the nearest term to try to address this crisis of 
climate change.
    And I am also particularly interested, Mr. Duke, in your 
views on what we can do to incentivize progress on this point 
other than to the detached issues that have been discussed. If 
you can start with that and then we can have others give a kind 
of final perspective.
    Mr. Duke. Thank you, Representative, for the closing 
questions.
    I would like to underscore that the United States has been 
and really remains the most important player on the world stage 
for dealing with climate change. It really was the United 
States and China jointly announcing their targets in 2014 to 
cut emissions, with China committing to peak their emissions 
for the first time--and they are delivering on that, by the 
way--that is what kick started the move to the Paris Agreement, 
and that is the kind of leadership that we had shown 
historically and can and will show again.
    To be in the position to do that, though, we need to have 
the right incentives in place that are as far-reaching and 
market-based as possible. The best way to do that is with a 
price on carbon that is congressionally bipartisan and that 
reinvests the revenue that comes out of that carbon price in 
order to create the right infrastructure, from transmission to 
electric vehicle charging stations, and to do right by the 
communities that are on the front lines of this transition, 
whether it is coal communities or low-income communities 
suffering from pollution today.
    And I can tell you that when we do that, not only will we 
lead on technology and on the diplomatic stage again, but we 
will also clean up our public health problems in a dramatic 
way. When you move to clean energy, you clean up everything> 
You don't just clean up CO<INF>2</INF>, you clean up all the 
public health contaminants as well. And I look forward to 
seeing bipartisan action on a carbon price that makes all that 
happen and that allows our business to do their job and compete 
with China and the rest of the world.
    Mr. Sarbanes. Any other closing observations, this last?
    Dr. Ekwurzel. Don't forget the damages of climate change 
and global emissions. When you stack that up against these low 
costs per kilowatt that are already happening, invest in the 
science, invest in the social science. This is big 
transformation that I think is going to be a cleaner, healthier 
world ahead when we act now.
    Mr. Williams. Mr. Sarbanes----
    Mr. Sarbanes. Yes.
    Mr. Williams [continuing]. It was mentioned on both sides, 
the moonshot. And I think it is important to note that the 
moonshot involved Federal intervention, Federal targets, and 
date-specific goals that was connected with investments and 
incentives. We need the same thing for climate change.
    Mr. Sarbanes. Reverend Woodberry.
    Reverend Woodberry. Community-based solutions that will 
provide energy efficiency, renewable demand-side management 
tools that will create jobs, and also a price on carbon, 
ensuring that that money goes to communities that have a legacy 
of abuse and pollution.
    Mr. Powell. I will say I heard broad agreement that climate 
change is a real and urgent problem that we need to address, 
that we need much higher-ambition policies than we currently 
have, that we need a full toolkit of solutions to solve the 
problem, we can't take anything off the table, and that 
innovation is a really good place to get started.
    Mr. Worthington. I guess I am last. I would just reiterate 
that both from an energy production side and the efficiency 
side, we need all of the above. We need every technology that 
is economically available. Plus, we can't ignore or take any 
technologies off the table, both on the supply and the 
utilization side.
     Mr. Sarbanes. Thank you all. Mr. Chairman, again, thanks 
for the hearing. I think we agree that we have to move super 
aggressively in the direction of the side of the portfolio that 
has to do with green, sustainable energy. The testimony we 
received today will help us do that.
    I yield back.
    Mr. Tonko. Thank you very much. And the gentleman yields 
back.
    I believe that completes the list of Members who chose to 
question the members of the panel. I do thank, very much thank 
the witnesses for their participation in today's hearing, my 
first hearing as chair. So I appreciate your cooperation 
immensely. Thank you for the great inclusion of ideas and 
thoughts and opportunities that lie before us. We appreciate it 
greatly.
    I remind Members that, pursuant to committee rules, they 
have 10 business days to submit additional questions for the 
record to be answered by the witnesses who have appeared. I ask 
each witness to respond promptly to any such questions that you 
may receive.
    And then, finally, I request unanimous consent to enter the 
following documents into the record. They include testimony of 
Jason Hartke, President of the Alliance to Save Energy, Climate 
Change in the Great Lakes Region: An assessment of Great Lakes 
Integrated Sciences; a January 8, 2019, letter from the 
Alliance to Save Energy that was forwarded to Speaker Pelosi, 
Leader McCarthy, Senate Majority Leader McConnell, and Senate 
Minority Leader Schumer; a letter from TechNet; a letter from 
the Advanced Energy Economy; a slide that was provided today by 
Representative McKinley in his questioning; and, finally, a 
presentation of slides by the witnesses that accompanied 
today's involvement.
    [The information appears at the conclusion of the hearing.]
    Mr. Tonko. So, with all of that, we again thank everyone 
for their participation and my colleagues for their interest in 
the issue. And at this time the subcommittee is adjourned.
    [Whereupon, at 1:13 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Debbie Dingell

    Thank you Chairman Tonko and Ranking Member Shimkus, for 
holding this hearing today to discuss the urgent threat from 
climate change we all face and the way forward.
    Sea levels are rising. Average temperatures are warming. 
Ice is disappearing at alarming rates. Extreme weather is 
intensifying and becoming more frequent--from stronger 
hurricanes to colder winters.
    The world's top scientific minds have made it clear: the 
time for debate is over-urgent and decisive action is needed 
now on a significant scale to address climate change. The will 
of one city, one county, one State, or one country will not be 
enough to meet the challenge ahead.
    In the Great Lakes, we are already seeing increased 
variability in lake water levels, more harmful algae blooms, 
and wildlife habitats adversely impacted, which will continue 
to negatively affect the region's economy and way of life long-
term.
    It is critical the United States rejoint the rest of the 
industrialize world as a member of the Paris Climate Accord and 
take immediate steps to ensure this Nation is transitioning 
across all sectors to a carbon-zero economy. Repealing, rolling 
back, or weakening the Clean Power Plan, Clean Air Act, clean 
car standards, or any other effort to reduce greenhouse gases 
only exacerbates the climate crisis we need to solve.
    With 2018 listed as one of the hottest years on record, the 
American people have demanded immediate action. Allowing 
greater climate pollution threatens our public health, our 
economy, and our national security.
    We need bold, new ideas to create a pathway to a clean 
energy future and create new, good-paying jobs at the same 
time. We need to make the necessary investments in 
infrastructure, workforce, and education to mitigate, adapt, 
and reverse the growing climate threat.
    Thank you to all the witnesses for being here today at this 
important hearing. I am looking forward to working with my 
colleagues--Republicans and Democrats--on the Energy and 
Commerce Committee to take serious action and pass meaningful 
climate legislation this Congress.
    We must have the courage to act--the consequences of 
inaction are real, and all future generation are put at risk 
each day we do nothing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    From: Richard J. Powell, Executive Director, ClearPath
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    

                                 <all>
</pre></body></html>
